<html>
<title> - THE CAPITOL INSURRECTION: UNEXPLAINED DELAYS AND UNANSWERED QUESTIONS (PART II)</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                       THE CAPITOL INSURRECTION:
                         UNEXPLAINED DELAYS AND
                       UNANSWERED QUESTIONS (PART II)

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2021

                               __________

                           Serial No. 117-28

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-854 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                      Russ Anello, Staff Director
                          Amish Shah, Counsel
                           Will Ryan, Counsel
                   Matthew Patane, Professional Staff
                       Elisa LaNier, Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 15, 2021....................................     1

                               Witnesses

The Honorable Christopher Wray, Director, Federal Bureau of 
  Investigation
    Oral Statement...............................................     6

Lieutenant General Walter E. Piatt, Director of the Army Staff, 
  United States Army
    Oral Statement...............................................     8

General Charles A. Flynn, Commanding General, U.S. Army Pacific
    Oral Statement...............................................     9

Ms. Yogananda Pittman (Invited), Acting Chief, U.S. Capitol 
  Police
    Oral Statement...............................................

 Opening statements and the prepared statements for the witnesses 
  are available in the U.S. House of Representatives Repository 
  at: docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents entered into the record by unanimous consent 
  (UC's), and Questions for the Record (QFR's) are listed below. 

  * UC - Report, Revolver News; submitted by Rep. Gosar.

  * UC - Article, ``The False and Exaggerates Claims Still Being 
  Spread about the Capitol Riot;'' submitted by Rep. Biggs.

  * UC - Article, ``As the Insurrection Narrative Crumbles 
  Democrats Cling to it More Desperately than Ever;'' submitted 
  by Rep. Biggs.

  * UC - Article, ``The January 6th Insurrection That Wasn't;'' 
  submitted by Rep. Biggs.

  * UC - Article, ``FBI Seize Congressional Cell Phone Records 
  Related to Capitol Attack;'' submitted by Rep. Biggs.

  * UC - Letter, Senator Ron Johnson's June 7, 2021 to the 
  Department of Justice; submitted by Rep. Herrell.

  * QFR's: to Flynn; submitted by Chairwoman Carolyn B. Maloney.

  * QFR's to Piatt; submitted by Chairwoman Carolyn B. Maloney.

These documents are available at: docs.house.gov.

 
                       THE CAPITOL INSURRECTION:
                         UNEXPLAINED DELAYS AND
                     UNANSWERED QUESTIONS (PART II)

                              ----------                              


                         Tuesday, June 15, 2021

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 2:32 p.m., in 
room 2154, Rayburn Office Building, Hon. Carolyn Maloney 
[chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Lynch, Connolly, 
Krishnamoorthi, Raskin, Khanna, Mfume, Ocasio-Cortez, Tlaib, 
Porter, Bush, Davis, Wasserman Schultz, Welch, Johnson, 
Sarbanes, Speier, Kelly, Lawrence, DeSaulnier, Gomez, Pressley, 
Quigley, Comer, Jordan, Gosar, Foxx, Hice, Grothman, Cloud, 
Gibbs, Higgins, Norman, Sessions, Keller, Biggs, Clyde, Mace, 
Franklin, LaTurner, Fallon, Herrell, Donalds.
    Chairwoman Maloney. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for an opening statement.
    Today the Committee on Oversight and Reform is holding its 
second hearing on the January 6 insurrection. As we examine the 
events of that day, we must keep at the forefront that January 
6 was the deadly culmination of weeks of increasingly desperate 
efforts by former President Trump to prevent the peaceful 
transfer of power and overturn the lawful results of the 2020 
Presidential election.
    Just this morning, the committee released documents we 
obtained showing that in the weeks leading up to the January 6 
attack, President Trump repeatedly pressured the Department of 
Justice to overturn the election he had lost. President Trump 
sent bogus election fraud claims to Jeffrey Rosen just minutes 
before he announced on Twitter that he was appointing Mr. Rosen 
as acting Attorney General. When that didn't work, President 
Trump used official White House channels and a private attorney 
to pressure DOJ to file a lawsuit in the Supreme Court to 
nullify the election, but only in states he lost. When the 
Department refused, President Trump attempted to replace Mr. 
Rosen with another DOJ official, who appeared willing to 
embrace these conspiracy theories and further the President's 
corrupt ends. In an email released by the committee, one DOJ 
official called the conspiracy theories pushed by the White 
House ``pure insanity.''
    After his efforts to pressure the Department of Justice 
failed, President Trump grew even more desperate, and so on the 
morning of January 6, he sent an angry, violent mob to the 
Capitol. The goal was to use violence to stop Congress from 
certifying that Joe Biden won the election. In other words, 
Donald Trump was attempting to instigate a coup or, to use his 
own words as he gave literal marching orders that morning, 
President Trump wanted the rioters to ``Walk down to the 
Capitol. Fight like hell. Stop the steal.'' And the rioters 
responded. They marched to the Capitol, forced their way 
inside, violently attacked the police, and put the lives of the 
Vice President and Members of Congress and their staffs in 
grave danger. Thanks to the bravery of our law enforcement, 
including the U.S. Capitol Police and D.C.'s Metropolitan 
Police Department, the mob was defeated, and Congress certified 
the results of a free and fair election.
    But make no mistake: the men and women on the front lines 
of that battle faced terrible odds on January 6. They were 
beaten, bludgeoned, and pepper sprayed. Many officers from the 
Capitol Police lacked the equipment and proper training to 
confront such a violent mob, and others felt they did not 
receive the instructions and support from superiors that they 
needed as conditions deteriorated.
    Mr. Lynch. Is the chairwoman muted?
    Chairwoman Maloney. No.
    Voice. I can hear her.
    Chairwoman Maloney. Last week, in consultation with Ranking 
Member Comer, the committee invited the acting chief of the 
Capitol Police, Yogananda Pittman, to testify today about these 
challenges. I am very disappointed that Chief Pittman has 
declined to appear today. However, she has committed to 
testify, and I can announce today that she will appear before 
this committee on July 21.
    The Capitol Police were gravely unprepared on January 6, 
but they could not be expected to repel the worst attack on the 
Capitol in 200 years on their own. Unfortunately, our 
committee's investigation has revealed that the Federal 
Government failed to sound the alarm before January 6 and was 
slow to respond once the attack occurred. Today, we are joined 
by three witnesses who can shed light on those failures. First, 
we are joined by FBI director, Christopher Wray. The FBI is our 
Nation's leading law enforcement agency and is tasked with 
preventing domestic terrorism.
    In the weeks before January 6, online forums erupted with 
threats of violence against lawmakers and the Capitol. One FBI 
field office warned that violent extremists were preparing for 
``war.'' Yet the FBI failed to use all of its tools to warn of 
the looming assault. It did not use or issue a formal 
intelligence bulletin about the threat, and it did not pass on 
key intelligence to the leaders of the Capitol Police. Five 
months after the attack, we still do not have the full story of 
these failures because the FBI and Department of Justice have 
not fully cooperated with this committee's investigation. This 
delay is unacceptable, and it makes us more vulnerable to yet 
another attack.
    Today, we also welcome General Charles Flynn and Lieutenant 
General Walter Piatt who worked on the Army staff on January 6. 
Neither of these career military officers was in the direct 
chain of command on January 6, but they both participated in 
key discussions about how the National Guard should respond. 
That response took far too long. Documents obtained by the 
committee show that beginning at 1:30 p.m., top officials at 
the Defense Department received at least 12 urgent requests for 
help from the Capitol Police, the mayor, and other officials. 
But after a series of delays, the National Guard did not arrive 
until 5:20 p.m., more than four hours after the Capitol 
perimeter was breached. This is a shocking failure, and today 
we intend to get to the bottom of why it happened.
    At our last hearing, I was deeply dismayed that some of my 
Republican colleagues denied basic truths about that day. So 
let's be clear. The attack was an insurrection. It was not a 
peaceful protest or a normal tourist visit. It was an 
insurrection. You don't have to take my word for it. The top 
Republicans in Congress--Senate Minority Leader McConnell and 
Republican Leader McCarthy--have both acknowledged that the 
events of January 6 were ``an insurrection.'' As the next step 
in our investigation, the committee has requested transcribed 
interviews with former White House chief of staff, Mark 
Meadows, who directly pressured DOJ officials at least five 
times to investigate false claims of election fraud. We also 
plan to interview former Acting Attorney General Jeffrey Rosen 
and other senior officials with firsthand knowledge of 
President Trump's campaign to overturn the 2020 election. We 
must never forget the horrific events we witnessed in January 
or dishonor those who risked their lives to protect ours. This 
committee will continue to fulfill its duty and investigate the 
attack on January 6 with every means at its disposal.
    Before I conclude, I would like to play a short video to 
remind everyone of exactly what transpired on that day. Please 
play the video.
    [Video shown.]
    Chairwoman Maloney. I now recognize the distinguished 
ranking member, Mr. Comer, for an opening statement.
    Mr. Comer. Well, thank you, Madam Chair, and before I begin 
my remarks on today's hearing, I just wanted to followup on 
some of the comments that you made at the beginning of the 
hearing referencing flouting the rules and things like that. I 
think we were all on the House floor last night, and we saw 
what I haven't seen since before the pandemic. There were 
probably 325, 350 members all on the House floor probably 30 
minutes voting. I saw maybe 10 members who had masks on. I 
believe they were on your side of the aisle. And it was like we 
were back to normal in the House of Representatives.
    Just like I made a couple of trips to Washington to the 
downtown area over the last two days, and in the restaurants, 
they are not requiring masks. The restaurants are back at full 
capacity, and we need to be back at full capacity and operate 
just like we are back to normal because we are. We have made 
great progress with this. And, you know, what we are hearing 
when we spent the last three weeks traveling the district, all 
of our districts, listening to the job creators and the 
employers of America, they are frustrated because they can't 
find workers. It is a bigger problem than inflation. It is a 
bigger problem than all of these Biden policies that are 
starting to kick in and be so detrimental to our economy.
    The biggest problem is a lack of workers, and we need to 
demonstrate in Congress, we need to show leadership that we are 
back to normal. We are going to get back to normal. We are 
going to get back to work in person, and that is what we are 
very happy to demonstrate here today. So I just wanted to make 
that statement, and I certainly hope that we continue the work 
and the demonstration that we are leading on this, and that we 
can have in-person hearings with in-person witnesses, and that 
we can get back to normal and do the business of the people. We 
would love to have a lot of hearings, and we send you letters 
almost every other day requesting certain hearings.
    When you talk about the rules, we have requested many times 
to have Dr. Fauci come and explain what he meant in those 
emails that have become public. We would love to ask questions 
as we try to lead and get our economy back to normal. So there 
are a lot of things that I think this committee could do 
together in a bipartisan way. And I am glad to see everybody 
back in the committee room, and we will get started with 
today's hearing.
    And I must say today's hearing appears to be part of a 
pattern by Democrats to hold unproductive, partisan hearings to 
advance a political narrative rather than make our government 
more efficient, transparent, and accountable to the American 
people. Last week, this committee held its second hearing on 
the opioid crisis by discussing a bankruptcy bill that isn't in 
this committee's jurisdiction. The Democrats' star witness for 
that hearing was a Democrat donor and book author who had no 
knowledge of bankruptcy and provided zero new information to 
this committee.
    In what has become a trend, this week, the committee is 
holding its second hearing on the events of January 6. This 
second hearing will also likely provide no new information. 
That is because the Democrats' star witness, FBI director, 
Christopher Wray, has already testified multiple times before 
Congress about the events of January 6. In fact, just last week 
he testified for five hours before the House Judiciary 
Committee answering dozens of questions that will likely get 
repeated for him here today. Last month, the committee's first 
hearing on the events of January 6 uncovered absolutely zero 
new information. Even CNN called the hearing unproductive. 
Democrats seemed upset that witnesses could not answer due to 
longstanding executive privileges and interests that have been 
upheld by the courts for generations.
    So today, the Democrats want to try again. Unfortunately, 
they aren't going to do much better. Director Wray cannot talk 
about ongoing investigations and ongoing matters. It is the 
nature of his job, and it is the same stance held by his 
predecessors. The Democrats know this. Just like last week, 
however, this second hearing isn't about gathering facts. It is 
about gathering political points. Director Wray is here for one 
reason only, and that is to add an aura of credibility to this 
overtly political hearing. That is because the Democrats have 
invited none other than Michael Flynn's brother, Charles Flynn. 
They have also invited Lieutenant General Walter Piatt. 
Combined, these two individuals have nearly 80 years of 
decorated service in the U.S. Army. They were not in the chain 
of command on January 6. They did not have the ability to order 
troops to move or to order them to stay on January 6. They 
didn't have that ability.
    Democrats want them to testify about a single phone call on 
January 6 that they may or may not have been on, let alone 
participated in. If Democrats really wanted answers, they would 
have demanded or subpoenaed Acting Chief Pittman to testify at 
one of their two hearings on the January 6 attack. Instead, 
they left it to us, the committee Republicans, to invite the 
acting chief, which we did. Of course, unfortunately, the 
minority does not have subpoena power. Pittman served as the 
head of the Capitol Police intelligence unit on January the 6. 
I mean, how could you have a credible hearing, much less two 
credible hearings, on January 6 when you don't invite the 
acting Capitol Police chief, who just so happened to be in 
charge of intelligence on January 6?
    Given last week's bipartisan Senate report outlining her 
ineffectiveness leading up to January 6, her presence here 
today would have been productive, but she declined to be here 
today. Instead, she is in her office just steps away from this 
room watching another hearing on TV, a hearing that she claims 
she may need to respond to in some fashion. It is no wonder 
that 92 percent of the rank-and-file disapprove of the job she 
is doing.
    Every one of us here wants answers, but because she never 
worked for President Trump, the Democrats have shown no 
inclination to compel her testimony. It seems her testimony 
wouldn't fit into Democrats' destructive, partisan narrative of 
the events of that day. Unfortunately, politics is the only 
lens through which Democrats seem to conduct committee business 
these days. It is why the committee held several hearings 
during the previous Administration about conditions at the 
border, yet now when the crisis is far worse and illegal border 
crossings are at a 20-year high, Chairwoman Maloney refuses to 
hold a hearing. We first asked for a hearing over 100 days ago, 
but the only response we have gotten is crickets. And with 
mounting evidence COVID-19 originated from the Wuhan lab, 
Republicans have repeatedly called on Democrats to investigate 
the origins of the virus to help prevent future pandemics, but 
Democrats have refused. Instead of holding communist China 
accountable, Democrats say they will only continue to 
investigate the Trump Administration.
    Under the leadership of Democrats, this committee is not 
about finding the truth. It is not about conducting meaningful 
oversight. It is only about politics. It is past time Democrats 
to get back to this committee's mission of identifying and 
preventing government waste, fraud, abuse, and mismanagement, 
and ensuring the Federal Government is effective, efficient, 
transparent, and accountable to the American people. Today's 
partisan hearing fails our committee's mission. The American 
people deserve answers about the attack on the U.S. Capitol and 
expect transparency and accountability from their leaders, but, 
sadly, today's hearing shows Democrats continue to prioritize 
politics over the American people.
    Madam Chairman, I sadly yield back.
    Chairwoman Maloney. The gentleman yields back. Ms. Pitman 
will be testifying before the committee on July 21.
    Now I would like to introduce our witnesses. Our first 
witness today is the Honorable Christopher Wray, who is the 
director of the Federal Bureau of Investigation. Then we will 
hear from Lieutenant General Walter Piatt, who is the director 
of the Army staff. Finally, we will hear from General Charles 
Flynn who is the commanding general of the U.S. Army Pacific. 
The witnesses will be unmuted so we can swear them in. Please 
raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [A chorus of ayes.]
    Chairwoman Maloney. Let the record show that the witnesses 
answered in the affirmative. Thank you.
    Without objection, your written statements will be made 
part of the record. With that, Director Wray, you are now 
recognized for your testimony.

STATEMENT OF THE HONORABLE CHRISTOPHER WRAY, DIRECTOR, FEDERAL 
                    BUREAU OF INVESTIGATION

    Mr. Wray. Good afternoon, Chairwoman Maloney, Ranking 
Member Comer, and members of the committee. Thank you for this 
opportunity to talk about the FBI's work leading up to and 
following the siege here at the Capitol on January 6. It's been 
more than five months since the violence and destruction of 
that day, and I am no less appalled today than I was then, and 
no less determined to do our part to make sure that it never 
happens again.
    On January 6, our country witnessed an angry mob attack the 
U.S. Capitol in a failed attempt to interfere with our 
democratic process, an assault where you, the Members of 
Congress, were victims, but where all Americans, in a sense, 
were victimized and more than 100 law enforcement officers were 
injured in just a few hours. Such acts of domestic terrorism 
are an affront to the rule of law and have no place in our 
democracy, and the FBI's agents, analysts, and professionals, 
alongside our partners, have been working around the clock to 
track down those who participated in the attack to hold them 
accountable. We have already made close to 500 arrests with 
more sure to come.
    Unfortunately, January 6 wasn't an isolated event. Domestic 
terrorism has been and continues to be a top concern for the 
FBI, so much so that over the past three years, we doubled our 
domestic terrorism investigations and arrests, in no small part 
because of the rise in racially and ethnically motivated 
violent extremists which I elevated to our highest threat 
priority level back in 2019, and because of the rise in 
violence from anti-government, anti-authority actors over the 
past year, including on January 6. I have also repeatedly 
highlighted the severity of the threat more than a dozen times 
in testimony over the years since I took office.
    Now, thankfully, the FBI is far from alone in this fight. 
Earlier today, Attorney General Garland announced the first-
ever National Strategy for Countering Domestic Terrorism. The 
strategy calls for a sweeping response to the pervasive 
domestic terrorism problem, one that demands attention from all 
of us. It serves as a commitment from the U.S. Government to 
work with our state, local, and foreign partners, and with 
private sector partners to share domestic terrorism-related 
information, prevent domestic terrorism recruitment and 
mobilization to violence, and disrupt terrorist activity here 
in the homeland before it happens. It is also a thoughtful 
response that carefully balances American safety and security 
with the civil rights and civil liberties we all cherish.
    Before I take your questions, I do want to talk for just a 
moment about an issue that was front and center during the 
riots on January 6 and that also hits very close to home at the 
Bureau. Over the past year, we have seen a troubling uptick in 
violence against members of the law enforcement community. That 
is not just counting the Capitol attack on January 6 or the 
attacks against hundreds of officers across the country during 
the civil unrest last summer. We are also seeing it, 
tragically, in the number of line-of-duty deaths. In just the 
first five months of 2021, 37 officers have been murdered on 
the job, far surpassing the number from this time last year. 
Now, to put that in perspective, that is almost two law 
enforcement officers violently killed every week, and that is 
not counting all those officers who died in the line of duty 
facing the countless other inherent dangers of the job, like 
from a car accident in pursuit after a subject, or drowning 
during an attempted rescue, or even the scores of officers who 
died from COVID-19 because, of course, law enforcement kept 
coming to work every day despite the pandemic. Nor is it 
counting all those officers who have been badly, badly injured 
on duty and thankfully survived, but whose lives and whose 
families' lives are forever changed as a result.
    The loss of any agent or officer is heartbreaking for their 
families, for their agencies, and for the communities they 
serve. We in the FBI know that all too well with the terrible 
loss of Special Agents Laura Schwarzenberger and Daniel Alfin 
down in Miami just this past February. Since I came on board as 
director, I have made it a point to know when any officer is 
shot and killed in the line of duty anywhere in the United 
States. I read about their career and about their family before 
personally calling the chief or sheriff of their department to 
offer mine and the FBI's condolences and support. Since August 
2017 when I started in this job, I have made more than 200 of 
those calls. Now, with each one, I think about the family 
members, friends, and colleagues rocked by the loss of a loved 
one, the careers cut short, and the communities hurting.
    And I bring this up today because if we're not careful, we 
could find ourselves taking for granted the sacrifices law 
enforcement officers and agents make every day to keep all of 
us safe. It takes a pretty special person to get up in the 
morning and be willing to put his or her life on the line for a 
total stranger, and to do that every day, year after year after 
year for an entire career is extraordinary. So we owe a debt of 
gratitude and a heck of a lot of respect to the brave men and 
women who choose to protect and serve their fellow Americans, 
people like the Capitol Police and Metro PD officers who 
bravely defended you and this building on January 6, and 
especially those who've made the ultimate sacrifice, like Dan 
Alfin and Laura Schwarzenberger, whose memories we honor every 
day through our work, along with the countless others we as a 
Nation have lost throughout the year. All of us here today have 
a shared responsibility to take a stand to protect our 
communities, to support those who serve in law enforcement, and 
to condemn violence regardless of its motivation. And we in the 
FBI are ready to use all the tools at our disposal to do just 
that, to uphold the rule of law and to fulfill our mission to 
protect every American.
    Thank you for this opportunity to appear before you today 
and for your continued support of the FBI. I look forward to 
your questions.
    Chairwoman Maloney. Thank you for your testimony. 
Lieutenant General Piatt, you are now recognized for your 
testimony. Lieutenant General?

 STATEMENT OF LIEUTENANT GENERAL WALTER E. PIATT, DIRECTOR OF 
                 THE ARMY STAFF, UNITED STATES

    General Piatt. Chairwoman Maloney, Ranking member Comer, 
and distinguished members of the House Committee on Oversight 
and Reform, good afternoon. My name is Walter Piatt. I serve as 
the director of the Army staff. Thank you for the invitation to 
appear before this committee to speak to you about the Army's 
actions in support of the events that took place on January 6 
in our Nation's capital.
    Before I begin, I would like to extend my sincere and 
lasting gratitude to the brave men and women who heroically 
defended the Capitol on January 6 and, without question, saved 
many lives. I also wish to extend my deepest sympathy to the 
families who lost loved ones that day.
    In the days leading to January 6, my role was to assist 
then Secretary of the Army, Ryan McCarthy, and to ensure that 
the Army provided the D.C. National Guard with the resources 
they required to accomplish their mission. The Army's role on 
January 6 began as unarmed support by the D.C. National Guard 
to the Metropolitan Police. By midday, the mission had changed 
drastically to respond to the attack on the Capitol. That 
change in mission was unforeseen, and we were not positioned to 
respond with immediate support.
    My involvement with our response to this emergency began 
shortly after entering the Secretary of the Army's office at 
3:20 p.m. to provide a report of a suspicious package. While I 
was there, a panicked call came in reporting several explosions 
in the city. To understand the situation and identify what was 
needed from the Army, Secretary McCarthy convened a conference 
call. During this call, D.C. and Capitol authorities 
frantically requested urgent and immediate support to the 
Capitol. We all immediately understood the gravity of the 
situation. Secretary McCarthy ran down the hall to seek 
approval from the Acting Secretary of Defense. Before 
departing, he directed me to have the staff prepare a response.
    I communicated this on the conference call, but those on 
the line were convinced that I was denying their request, which 
I did not have the authority to do, despite clearly stating 3 
times that ``We are not denying your request. We need to 
prepare a plan for when the Secretary of the Army gains 
approval.'' While I was still on the phone, then Lieutenant 
General Flynn rushed to establish a secure planning session 
with all the right staff personnel we were going to need to 
prepare for this new mission. Lieutenant General Flynn's 
immediate interpretation of the urgency of the situation 
allowed the Army staff to begin identifying the many critical 
actions and considerations we needed to address and address 
rapidly.
    We needed to redeploy the D.C. National Guard from 37 
locations throughout the District, alert and recall soldiers 
from their civilian workplaces, organize into unit 
configurations, equip the force, prepare an deployment plan to 
include communications, specific routes, link-up locations, 
casualty evacuation, the rules for the use of force, determine 
if the D.C. Guard would be armed or not armed, with or without 
riot control gear, and how and where the D.C. National Guard 
would be deputized to support Federal law enforcement. While we 
continued planning, the Secretary of the Army went into the 
District and met with Chief Contee and Mayor Bowser to 
coordinate for the commitment of the D.C. National Guard. The 
Secretary surveyed the Capitol to establish where the best link 
of point would be.
    By 4:32, we had an approved plan, and at 4:35 p.m., the 
Secretary of the Army ordered the D.C. National Guard to move 
to the Capitol and begin establishing perimeter security. Once 
the D.C. National Guard was committed, the Army staff continued 
to prepare and conduct planning to receive additional forces, 
identify what barrier material would be needed and where it 
could be found, how it would be contracted for, and employed 
and then placed to enhance the protection of the Capitol.
    On January 6, our Capitol was attacked, breached, and 
penetrated. Your lives, those of your staff, U.S. Capitol 
Police, and many others were threatened by a dangerous mob. Our 
collective mission now is to learn from this event and ensure 
an event like this never happens again. I hope that my 
testimony today will prove useful to that end. Thank you. I am 
prepared to answer your questions.
    Chairwoman Maloney. Thank you for your testimony. General 
Flynn, you are now recognized for your testimony. General 
Flynn?

STATEMENT OF GENERAL CHARLES E. FLYNN, COMMANDING GENERAL, U.S. 
                          ARMY PACIFIC

    General Flynn. Chairwoman Maloney, Ranking Member Comer, 
distinguished members of this committee, good afternoon. Thank 
you for the opportunity to appear before you and speak about 
the Army's actions in response to the event in our Nation's 
capital on January 6. I served as the Deputy Chief of Staff G-
357, the equivalent of the chief operating officer for the 
Army's 1.2 million soldiers. I was in charge of operations 
plans, training, and strategy. As an American citizen, I was 
shocked and I was angered at the events of January 6. As a 
soldier devoted to upholding our Constitution, I performed my 
duties and responded to the unfortunate events that occurred 
that day. To that end, I will address two areas today: my 
organization's activities and my individual actions.
    In the days prior to January 6, the D.C. authorities 
submitted a request for Federal forces to support an unarmed, 
non-law enforcement mission by the D.C. National Guard. That 
request focused on support to draft traffic control points and 
crowd management near Metro stations. The Army received no 
other requests for assistance. The D.C. National Guard then 
determined this request would require roughly 350 unarmed 
soldiers to cover two separate shifts. This included a 40-
person quick reaction force at Joint Base Andrews, and that 
quick reaction force was intended to augment crowd control and 
establish traffic control points, if required. The D.C. 
National Guard equipped those soldiers and airmen with body 
armors and helmets, which were stored in nearby government 
vehicles. Riot control gear, such as shields, leg protection, 
and full face shields, remained stored at the D.C. Guard 
Armory. Because the National Guard forces, including the quick 
reaction force, were never requested to serve as a riot control 
force, my director of current operations, a brigadier general, 
validated these requirements, and with Secretary McCarthy's 
endorsement, Acting Secretary of Defense Miller approved the 
request and assigned the mission on Monday, January the 4th.
    I will now transition and describe my actions on January 
the 6th.
    Early that afternoon, I was holding a meeting in my office. 
At approximately 2:21, I was alerted that the Capitol was under 
attack and that Secretary McCarthy's office had requested me to 
move to his office. Not yet knowing the scope of the problem, I 
moved quickly to Secretary McCarthy's office. I saw him walking 
out while giving instructions to numerous staff members that 
were already in the room. He was already on his way to meet 
with Acting Secretary Defense Miller. My director of current 
operations, a brigadier general, was with him. Continuing 
further into his office, I saw the director of the Army staff, 
Lieutenant General Piatt, in the rear of the room. He was 
standing over a speakerphone, and he was the only person in the 
office speaking on the call. Reaching his side, I recall 
hearing an unidentified person on the other end of the 
speakerphone tensely ask, ``Are you denying our request?'' 
General Piatt responded with words to the effect, ``I'm not 
denying your request. I'm waiting for an answer from Secretary 
McCarthy, who is with the Acting Secretary of Defense 
presently. In the meantime, we should develop a plan.''
    Seconds later, I recall a second question from a second 
unidentified person who asked, ``And to be clear, are you 
denying our request for National Guard forces to be used?'' 
General Piatt's response was similar to his first statement. I 
immediately realized the gravity of the situation, and it was 
very, very serious. Both speakers on the phone sounded highly 
agitated and even panicked. I recognized General Piatt's calm 
demeanor. It was a combat-experienced leader reacting to an 
otherwise violent and unpredictable event. I then realized, as 
General Piatt has said, the situation required the Army staff 
to rapidly develop and execute a plan. As the chief operating 
officer, I needed to initiate those efforts with absolute 
urgency, and I did.
    Having been in the room for roughly four minutes, I quickly 
moved to my office and began coordinating with numerous Army 
staff leaders across our large staff and across other Army 
commands so that we could rapidly facilitate and execute any 
decisions made by Secretary McCarthy and Acting Secretary of 
Defense Miller. This team of over 40 officers and non-
commissioned officers immediately worked to recall the 154 D.C. 
National Guard personnel from their current missions, 
reorganize them, re-equip them, and begin to redeploy them to 
the Capitol. We also began to coordinate for the arrival of 
neighboring states that were committing National Guard forces 
into the District of Columbia. Simultaneously, we had to gather 
materials, do surveys, and plan for barrier materials to be 
moved to the Capitol in order to protect that institution and 
you, and many, many other tasks. This work continued with utter 
focus and urgency throughout the night of January 6 and well 
afterwards.
    The D.C. National Guard's airmen and soldiers' response 
that day on January 6 is an absolute testament to their 
dedication to duty and their unquestionable defense of the 
Constitution of the United states. However, the events of 
January 6 must never be able to occur again. We must address 
the circumstances that allowed it to happen. Thank you for 
conducting this hearing, thank you for asking me to appear 
before you, and thank you for seeking my perspectives on the 
Army's actions that day. I look forward to your questions.
    Chairwoman Maloney. Thank you, General Flynn. I now 
recognize myself for five minutes for questions.
    Director Wray, stopping terrorism is the FBI's top 
investigative priority. On January 6, the Capitol was overrun 
by domestic terrorists. It has become clear that the FBI failed 
to take threats of violence seriously enough before the attack. 
Director Wray, when you testified before the Judiciary 
Committee last week, you said, and I quote, ``aware of online 
chatter about the potential for violence,'' but were, ``not 
aware that we had any intelligence indicating that hundreds of 
individuals were going to storm the Capitol itself.'' But the 
threats, I would say, were everywhere.
    The Norfolk Field FBI Office notified your office. The 
Washington Post and other newspapers were writing about it. It 
was on radio. It was on television. It was on other social 
media streams. The system was blinking red. The committee has 
obtained documents showing that social media company, Parler, 
sent the FBI evidence of planned violence in Washington, DC. on 
January 6. Parler referred this content to the FBI for 
investigation over 50 times, and, according to the company, 
``even alerted law enforcement to specific threats of violence 
being planned at the Capitol.''
    I would like to ask about one tip in particular. The 
committee has obtained an email in which an employee from 
Parler shared a social media post with an FBI liaison. In that 
post, a Parler user stated, and I quote, ``This is not a rally. 
It's no longer a protest. This is a final stand where we are 
drawing a red line at Capitol Hill.'' The user later said, and 
I quote, ``Don't be surprised if we take the Capitol 
Building.'' The user concluded, ``Trump needs us to cause chaos 
to enact the Insurrection Act.'' This information was passed to 
the FBI on January 2. Director Wray, were you made aware of 
this email from Parler prior to January 6? ``Yes'' or ``no,'' 
were you aware of this communications from Parler?
    Mr. Wray. Chairwoman Maloney, I do not recall hearing about 
this particular email, certainly not before January 6.
    Chairwoman Maloney. Were you aware of the 50 times that 
Parler tried to contact your office about an insurrection?
    Mr. Wray. I am not aware of Parler ever trying to contact 
my office. I am aware since January 6 that Parler has made some 
comments about its communications with the FBI. My 
understanding is that they sent emails to a particular field 
office, and that some of those contained possible threat 
information, and some of them were referred to domestic 
terrorism squads for followup. And we have been taking a hard 
look at the various emails that Parler sent to assess the 
accuracy of their assertions and whether further action is 
warranted. You also mentioned the Norfolk report.
    Chairwoman Maloney. Yes.
    Mr. Wray. And I guess I do want to be clear that that 
information, raw unverified information, as unfortunately so 
much of the information these days is on social media, was 
quickly passed to all of our partners in three different ways 
almost immediately. So I do want to be clear about that 
particular piece. We did over the course of the period--I am 
sorry?
    Chairwoman Maloney. Reclaiming my time.
    Mr. Wray. Sure.
    Chairwoman Maloney. Director Wray, do you know whether the 
FBI took any action in response, not just to the alarming 
email, but to the national media. The Washington Post reported 
on it. It was on radio, television. It was everywhere. Did you 
take any reaction to any of these alarming notifications that 
there was a planned insurrection at the White House? No, at the 
Capitol. At the Capitol.
    Mr. Wray. So a couple things. First, over the course of the 
period leading up to January 6, we put out, I think, a dozen or 
so intelligence products, including two bulletins in 
particular, specifically raising concerns about domestic 
violent extremism, specifically raising concerns about domestic 
violent extremism related to the election, and specifically 
related to domestic violent extremism continuing past Election 
Day itself right on up to the time of the certification and 
even the Inauguration. And that is in addition to some 500 or 
something field office intelligence products that were pushed 
out, raw intelligence that were pushed out to our partners 
along the way. In addition, we----
    Chairwoman Maloney. Reclaiming my time.
    Mr. Wray. Yep.
    Chairwoman Maloney. Director Wray, do you agree that the 
FBI shares some blame for the failures on January 6? Do you 
take any responsibility for these failures?
    Mr. Wray. Chairwoman, I think the best way for me to answer 
that question is that our goal is to bat a thousand, and 
anytime there is an attack, much less an attack as horrific and 
spectacular as what happened on January 6, we consider that to 
be unacceptable. And we are absolutely determined to make sure 
that we are doing our part with our partners to make sure it 
never happens again. So you can be confident that we are 
evaluating----
    Chairwoman Maloney. That is good that you are making that 
commitment. Reclaiming my time. Will you commit to conducting 
an assessment of what went right and what went wrong at the FBI 
before January 6 and providing this assessment to the public 
and to the committee?
    Mr. Wray. Evaluating how we can do better. I also want to 
make sure that I don't get in the way of, as you may know, 
there is a Department of Justice inspector general review that 
I think is relevant to this as well. And so I am going to be 
very interested in hearing what the inspector general 
concludes, but we will have to work through all that.
    Chairwoman Maloney. Well, I would say that the inspector 
general has a different role. I think it is very normal to 
assess what went right and what went wrong during a crisis. We 
are asking for an assessment. I would have assumed that you 
would be doing one. And just ``yes'' or ``no,'' will you 
provide us with the assessment to the committee of what went 
right, what went wrong? And you said you want to make sure this 
never happens again. What are the steps the FBI are taking that 
this never does happen again? I think that is a very fair and 
reasonable request.
    Mr. Wray. Absolutely. There is no problem with us trying to 
give you more information about the changes that we are making, 
the improvements, enhancements we are making to ensure that 
this doesn't happen again.
    Chairwoman Maloney. And I must conclude by saying that we 
are very disappointed at the response from the FBI on the 
document request that we have sent out with five other 
committee chairmen. We sent it back in March, nearly three 
months ago. And will you, ``yes'' or ``no,'' commit today to 
providing a complete response to these requests by the end of 
this month?
    Mr. Wray. I know that we have been trying to do our part to 
get you the right information. I know we have produced about 
500 or so pages of intelligence products, but I agree that we 
need to do better and move faster, and I have asked my staff to 
look for ways to expedite the process. I do want to be clear 
that it is trickier than it might sound. And the reason for 
that, which is an important reason that I want the whole 
committee to understand, is that we are totally immersed right 
now in making sure that our ongoing investigations, and now 500 
or so prosecutions to hold accountable the people who assaulted 
you all go forward, and are protected. And so managing the 
document production while protecting the integrity of those 
cases with some very strong-willed judges who have very clear 
views about publicity and things like that----
    Chairwoman Maloney. Document production is very, very 
important. We expect you to comply with it. I now recognize the 
gentlelady from North Carolina, Ms. Foxx. You are now 
recognized. Ms. Foxx?
    Ms. Foxx. Thank you, Madam Chairman. General Flynn and 
Piatt, thank you for dedicating your lives to the service of 
our Nation. I also give my profound thanks to all the police 
officers in this country and the Capitol Police who risk their 
lives every day to protect us and others.
    As I stated at part one of this hearing on May 12, ``If the 
goal of this hearing is to explore the circumstances 
surrounding January 6 and why it happened as it did, I would 
expect to see Capitol Police at this hearing.'' And the very 
title of this hearing, ``Unexplained Delays and Unanswered 
Questions,'' begs the issue of why the acting chief of the 
Capitol Police is not here.
    Republicans have asked the chairwoman to invite the acting 
U.S. Capitol Police Chief Pittman, to testify, but 
unfortunately, the chairwoman declined, and the chief declined 
our invitation to come so she can watch a different hearing at 
this time. On January 6, Acting Chief Pittman was head of 
Protective and Intelligence Operations and was responsible for 
receiving the intelligence sent to the Capitol Police about 
what was expected to happen that day. Judging by the fact that 
the rank-and-file members of the Capitol Police were caught 
unawares, and my sympathy is with all of them, I cannot help 
but wonder what intelligence was received and what was done 
about it. What we know is that on January 3d, President Trump 
authorized Acting Secretary of Defense Miller to activate the 
D.C. National Guard if requested. That fact alone indicates 
that some officials in our government with access to high-level 
intelligence knew that January 6 could be problematic. In order 
to find out the truth of what happened on January 6, those in 
charge of the Capitol Police must testify to what they knew and 
be held accountable.
    Director Wray, I have several questions for you, and I am 
going to ask you please to answer very quickly and with one 
word, which will suffice in most cases. I applaud your 
commitment to bringing those who incited and engaged in 
violence on January 6 to justice. You stated before that you 
expect more serious charges against people involved in the 
events of January 6. Are those charges likely to include 
conspiracy? ``Yes'' or ``no?''
    Mr. Wray. Yes.
    Ms. Foxx. In your legal opinion, if someone were to be 
charged with conspiracy to commit a crime, are they likely also 
to be charged with incitement? ``Yes'' or ``no?''
    Mr. Wray. I am not sure I can give you a ``yes'' or ``no'' 
on that one because it depends a lot on the circumstances.
    Ms. Foxx. Then I will ask for a written statement after the 
hearing.
    Ms. Foxx. In your legal opinion, if individuals are charged 
with conspiracy to commit a crime, is it likely that an outside 
individual would also be charged with inciting them to commit 
their crimes?
    Mr. Wray. Well, I appreciate you asking for my legal 
opinion. I do want to be clear that since becoming FBI 
director, I have actually been very pleased to hang up my 
lawyer hat.
    Ms. Foxx. OK.
    Mr. Wray. And so I would really refer you to the Justice 
Department for legal opinions.
    Ms. Foxx. All right.
    Mr. Wray. But if there is information I can provide, I am 
happy to do it.
    Ms. Foxx. OK. Director Wray, you can't tell us anything 
about what communications were made in advance of January 6 
between U.S. Capitol Police and the Capital Police Board about 
the presence of National Guard troops because you wouldn't have 
been involved in those conversations. Isn't that true? ``Yes'' 
or ``no?''
    Mr. Wray. Mute too quickly. You are correct.
    Ms. Foxx. OK. Director Wray, the FBI passed its Norfolk 
intelligence report to the Capitol Police in three different 
ways, correct?
    Mr. Wray. Yes, ma'am.
    Ms. Foxx. Those three ways were an email to representatives 
on the task force, a verbal briefing at command post, and 
through a law enforcement portal, correct?
    Mr. Wray. Correct.
    Ms. Foxx. U.S. Capital Police Chief Sund testified he never 
received the Norfolk intelligence report, yet current Acting 
Chief Pittman, who declined to be with us today, was the head 
of Protective and Intelligence Operations for U.S. Capitol 
Police at the time. Do you know why she never passed this FBI 
intelligence report to Chief Sund? ``Yes'' or ``no?''
    Mr. Wray. No, ma'am.
    Ms. Foxx. General Flynn, you wouldn't be able to tell us 
about the internal intelligence assessments prepared by then 
Assistant Chief Pittman's Protective and Intelligence 
Operations Bureau in the weeks leading up to January 6, would 
you?
    General Flynn. Congresswoman, I would not.
    Ms. Foxx. General Piatt, you aren't intimately familiar 
with the command structure of the U.S. Capitol Police, and any 
breakdowns in communication that might have occurred on January 
6, are you?
    [No response.]
    Ms. Foxx. General Piatt?
    [No response.]
    Chairwoman Maloney. General, you are muted. Please unmute 
your mic.
    General Piatt. Can you hear me now, ma'am?
    Chairwoman Maloney. Yes.
    Ms. Foxx. Yes.
    General Piatt. I am not, Congresswoman.
    Ms. Foxx. Madam Chair, I mean, I have one more question 
because of the time that has elapsed with the mute buttons 
being on. Director Wray, in February, the U.S. Capitol Police 
Union voted on the confidence they had in Acting Chief Pittman. 
Do you know what the results of that vote were?
    Mr. Wray. I do not.
    Ms. Foxx. Well, I will tell you. Ninety-two of the Capitol 
Police had a vote of no confidence in Acting Chief Pittman. 
Ninety-two percent. If my majority counterparts wanted these 
answers, they could have them. They could have invited Acting 
Chief Pittman immediately after the last hearing. They could 
have subpoenaed her testimony here today. I am concerned that 
they don't want answers. They want only a political cudgel. I 
know the chairwoman has said she has invited the Capitol Police 
leadership to appear at one of these hearings and conduct 
oversight on what happened and what they are doing to secure 
the Capitol going forward, and I look forward to that. With 
that, Madam Chair, I yield back.
    Chairwoman Maloney. The gentlelady yields back. And we do 
have a date for Acting Chief Pittman, and it's July 21 so we 
can get the answers to your questions then.
    Ms. Foxx. Madam Chair, I forgot. I would like to enter a 
timeline of events and approval authorities into the record.
    Chairwoman Maloney. So granted. So granted.
    Ms. Foxx. Thank you.
    Chairwoman Maloney. The gentlewoman from the District of 
Columbia, Ms. Norton, is recognized.
    Ms. Norton?
    Ms. Norton. Thank you very much, Madam Chair.
    And my first question is for General Flynn. We know, 
General Flynn, that the loss of lives and property could have 
been avoided, at least some of it, if the D.C. National Guard 
had been called out early enough to do its job. But until the 
District attains statehood, and we are close on that, but even 
the territories can call out their National Guard. But the 
District of Columbia cannot.
    Now look at the convoluted process that is in place. The 
D.C. National Guard reports to the Secretary of the Army, who, 
in turn, supports--reports to the Secretary of Defense, who 
then reports to the commander-in-chief. If you understand that 
chain of command, you will understand why there was not help 
earlier on January 6.
    General Flynn, is what I described the correct description 
of the chain of command?
    General Flynn. Congresswoman, it is, as I understand the 
authorities, yes.
    Ms. Norton. Now there are multiple layers of bureaucracy 
and red tape that had real-life consequences on January 6, and 
we got some of these documents here. I have looked at them. We 
have gotten them from the U.S. Capitol Police, and we have 
gotten them from the D.C. Police.
    And we know that city officials here in the District of 
Columbia pleaded for help--I think the chairwoman said 12 
times--before, finally, the Acting Secretary--and remember, you 
got to go to him to get the D.C. National Guard to begin to do 
its job. At just after 4:30 p.m., they came, but the Mayor of 
the District of Columbia called the Secretary of the Army at 
1:34 p.m. So you have got almost four hours.
    But we need to thank the men and women of the D.C. Police 
Department because they had already answered the call for help, 
and they had begun arriving at the Capitol even 30 minutes 
earlier. The D.C. National Guard didn't get any authority to 
arrive at the Capitol until four hours after the call for help.
    Madam Chair, that is what has led and what in part has led 
to the loss of life and the confusion that resulted from the 
insurrection.
    General Piatt, I noted in your written testimony that you 
have provided--and I am going to quote from it--you said, ``I 
was definitely concerned about the public perception of using 
soldiers to secure the election process in any manner that 
could be viewed as political.''
    General Piatt, do you believe that the current D.C. 
National Guard chain of command to the President through the 
Secretary of Defense, of course appointed by the President, to 
the Secretary of Army, appointed by the President, could 
inadvertently politicize and complicate the use of the D.C. 
National Guard?
    General Piatt. Madam, I believe the complication comes from 
the lack of unity of command and unity of effort. What we saw 
after January 6 when we prepared for the inauguration was an 
integrated security plan across the District with one lead 
Federal agency so that one request could be worked out 
immediately with that agency, and they had the authorities to 
move and maneuver forces to wherever they would be needed.
    Ms. Norton. I see my time has expired.
    Chairwoman Maloney. The gentlelady yields back. The 
gentleman from Georgia, Mr. Hice, is now recognized. Mr. Hice?
    Mr. Hice. Thank you, Madam Chair.
    I, along with many others, have consistently and forcefully 
condemned political violence by anyone of any kind, whether it 
happens here in the United States Capitol or anywhere else 
across our country. Law and order is critical for us to 
preserve a peaceful republic, and anyone breaking our laws 
should be held accountable. This is what we refer to as equal 
justice for all.
    Beginning under President Trump, the FBI and the Department 
of Justice worked hard, tirelessly, to investigate and 
prosecute those who were involved in criminal behavior and 
violence here at the Capitol on January 6, as well they should 
have. But I am troubled that reportedly dozens of individuals 
from the January 6 riots have been held without bond in 
solitary confinement for up to 23 hours a day.
    Even Senator Elizabeth Warren has said that solitary 
confinement is a form of punishment that is cruel and 
psychologically damaging. She went on and said that in relation 
to those involved in January 6 that we are talking about people 
who haven't been convicted of anything yet. Even the ACLU 
expressed similar concerns, saying that solitary confinement is 
torture.
    Director Wray, you have mentioned a couple of times now 
some 500-plus prosecutions from January 6. Your work in that 
regard we all appreciate. I am curious, though, how many of 
those are in solitary confinement?
    Mr. Wray. Congressman, I thank you for your appreciation 
for our work.
    I don't know the number that would be held under those 
conditions. That's a decision made by the court in conjunction 
with the Justice Department prosecutors. So I'm afraid I don't 
have that number or estimate for you.
    Mr. Hice. So you have no idea how many are in solitary 
confinement? This is something that is being pretty well 
reported. I would think you would have some degree of knowledge 
and information. You are saying you don't know?
    Mr. Wray. I don't--I don't keep up on the terms of 
confinement or detentions----
    Mr. Hice. Is it--would you consider it standard operating 
procedure to hold Americans who have yet to stand trial to be 
held in solitary confinement?
    Mr. Wray. I'm not sure I could say one way or the other on 
that. Certainly, there are plenty of situations where that--
that occurs. So it would have to depend on the circumstances of 
the particular case, and I do want to be very careful not to be 
commenting on any specific----
    Mr. Hice. Well, there is a great deal of concern with this. 
Let me move on. I started by early talking about equal justice 
for all. Last summer, our Nation was rocked by months of 
violence all across our country following the death of George 
Floyd.
    In fact, from May 26 to June 8 last year, Black Lives 
Matter and Antifa riots caused over $2 billion in property 
damage. It is estimated here at the Capitol it was on January 6 
somewhere in the neighborhood of $1.5 million. The Major Cities 
Chiefs Association said that during the 10 weeks following 
George Floyd's death, there were 574 riots, declared riots, 
with violence and other criminal activity. That is 57 per week.
    Americans lost their lives. There were severe injuries, 
including over 2,000 law enforcement. And yet the Democratic 
Party, to this day, has yet to even hold a single hearing on 
the BLM and Antifa riots. It is stunning to me.
    Many of my Democratic colleagues pretend that the chaos 
never happened. Others promoted, actually, and encouraged it. 
And frankly, the left, along with the allies of the liberal 
media, pushed a false narrative that these were somehow 
peaceful protests while we watched burned police stations, 
besieged courthouses, looted businesses, assaulted police 
officers, and on and on and on.
    And I am concerned, Director Wray, that we are--all that 
somehow is resulting in a less than aggressive investigation, 
prosecution, and sentencing on the Federal level. So I am 
curious, how many individuals has the FBI investigated and/or 
arrested regarding the riots that we all watched across our 
country last summer?
    Mr. Wray. I can't give you the exact number, but I do know 
that we've had hundreds of investigations and hundreds of 
arrests. And I would be remiss if I didn't say that I share 
your concern about the violence and criminality that occurred 
over the summer. It is extremely serious activity that we used 
all the tools in our toolbox to pursue.
    Our Joint Terrorism Task Force is treating it as a form of 
domestic terrorism as well. And in fact, last year we had more 
anarchist violent extremist arrests than we've had in the prior 
three years combined.
    So we at the FBI are taking both forms of domestic 
terrorism extremely seriously, and I appreciate your interest.
    Mr. Hice. Are you aware of any of those individuals being 
in solitary confinement?
    Mr. Wray. Well, again, same answer as on connection with 
the January 6 arrests, I just don't----
    Mr. Hice. All right, Director Wray. Thank you. I get the 
point. I would love to ask about the Durham report, the Hunter 
Biden laptop, Hunter's business dealings in China, and a host 
of other things, but my time has expired.
    I will wrap up, but I would urge this Democratic leadership 
to hold hearings on the riots that took place across this 
country last summer.
    I yield back.
    Chairwoman Maloney. The gentleman from Massachusetts, Mr. 
Lynch, is recognized.
    Mr. Lynch. Thank you, Madam Chair.
    I would like to thank all the witnesses. Thank you for your 
service.
    I would actually not want to know about Hunter Biden's 
laptop. I would like to know about the attacks on January 6, if 
we could. And Lieutenant Piatt and General Flynn, again thank 
you for appearing today.
    Lieutenant Piatt, in your written testimony, you stated 
that, ``It was important for the D.C. National Guard to figure 
out the basics of their new mission.'' But Major General 
William Walker has testified that his forces were ready to go 
well before he finally received Acting Secretary Miller's 
authorization to deploy to the Capitol.
    Lieutenant General Piatt and General Flynn, our committee 
has obtained evidence that you both recommended that the 
National Guard deploy to protect other Federal buildings, other 
Federal buildings and locations in Washington, DC, to help 
relieve civilian police and security forces so they could go 
and defend the Capitol. Is that correct?
    General Piatt. Congressman, we received the first request 
on January 1, and we spent those days preparing the D.C. 
National Guard to support Mayor Bowser's request for unarmed 
traffic control points and crowd control. When the call came 
in, and it was after 14--or 2:22 that afternoon, the urgent 
request now was to support the Capitol. That was the change of 
mission.
    The approval to support----
    Mr. Lynch. Whoa, whoa, whoa, whoa, whoa. Let me just back 
up. Reclaiming my time. On January 4, 2021, at the direction of 
then-Sergeant at Arms Michael Stenger and then-U.S. Capitol 
Police Chief Sund, they contacted General Walker to find out 
how many National Guard he could provide and how fast could he 
provide them if they were needed at the Capitol on January 6. 
So we are talking about an urgent need for the National Guard, 
D.C. National Guard, on the Capitol, not other buildings.
    And so I go back to the apparent decision by yourself and 
General Flynn to deploy National Guard not to the Capitol, but 
to other Federal buildings around D.C. and other monuments. Is 
that what happened here?
    General Piatt. Congressman, on the 3d and 4th, both the 
Department of Defense and the Department of the Army asked 
Capitol Police if they needed additional support, and both 
times the answer we were told they were not. What happened at 
the urgent request for now forces to come to the Capitol is we 
knew we would have to remission them because they did not have 
their riot control gear with them.
    We had to get them back to the armory. We had to 
reconfigure them and re-equip them to get them forward.
    Mr. Lynch. OK.
    General Piatt. On the phone call, what I suggested was, is 
we were looking at a range of options. Is there anything we 
could do immediately in the current posture we were in that 
would then help relieve others to get to the Capitol? There was 
not, and we moved on from that then----
    Mr. Lynch. All right. So let us go to January 6. This is 
January 6 at 4:20 p.m. Lieutenant Piatt, you reportedly told 
Major General Walker that the National Guard should ``plan and 
prepare to transition from traffic control points and be placed 
around other Federal buildings and monuments.''
    This is when it was hitting the fan----
    General Piatt. I was probably----
    Mr. Lynch [continuing]. At the Capitol at D.C. You know, at 
the Capitol complex. The Capitol was under attack----
    General Piatt. Congressman, I would say----
    Mr. Lynch [continuing]. And you were deploying or 
recommending that Walker--General Walker deploy people to other 
buildings. And I just--I can't reconcile that, given the threat 
that we were under.
    And I am just curious. At that moment, what were you 
thinking? What was your--what was your reasoning?
    General Piatt. Congressman--I'm sorry, Congressman.
    Mr. Lynch. Go ahead.
    General Piatt. Congressman, I do not know where that report 
came from. I deny that. At 4:30 that afternoon, we were minutes 
away from getting an approved plan from Secretary McCarthy. We 
had approval at 3 p.m. to use the Guard. We had--at 3:04 p.m., 
we had approval for full mobilization of the D.C. National 
Guard.
    What we needed was a new mission, and that new mission is 
what took time. There was no other seeking approval.
    Mr. Lynch. But, but--but look, look, look.
    General Piatt. We needed to redeploy forces and reconfigure 
them.
    Mr. Lynch. Look, look, just on the chronology, your 
recollection does not match what the record says. So the 4:20 
p.m. call was 80 minutes after Secretary Miller determined that 
all available forces of the D.C. National Guard are required to 
reinforce D.C. Police and U.S. Capitol Police positions. So it 
almost seems like we are deploying the National Guard or 
recommending their deployment away from the Capitol.
    And I just--I haven't got a good answer on that, and I am 
not getting one today.
    General Piatt. Congressman, I would recommend--I would 
refer to the U.S. Army Report of Operations on January 6 that 
we submitted to this committee. The timeline was that we had 
approval at 3 p.m., after the 2:30 p.m. phone call. We had 
approval to mobilize at 3:04 p.m.
    Then we needed to have a plan, which required the 
redeployment of the Guard, reconfiguration, re-equipment now to 
go into a mission that they were not previously conducting. 
They were conducting an unarmed traffic control point. That was 
the time we needed, and we recalled people from their civilian 
work force.
    What the D.C. National Guard did in those short hours was 
extraordinary. Now when people's lives are on the line, two 
minutes is too long. But we were not positioned to respond to 
that urgent request. We had to re-prepare so we would send them 
in prepared for this now, this new mission.
    Mr. Lynch. Madam Chair, my time has expired. Thank you, 
General. I yield back the balance of my time.
    Chairwoman Maloney. Thank you. The gentleman yields back. 
The gentleman from Wisconsin, Mr. Grothman, is now recognized. 
Mr. Grothman?
    Mr. Grothman. Thank you.
    A few questions for all of you, and I don't know you know 
the answers or not, but these are, I think, the type of 
questions that people back home are concerned about.
    How many people were in the Capitol that day? I mean 
members of the public, how many got in? Does anybody know the 
answer to that question?
    Mr. Wray. Congressman, it's Director Wray. I don't know 
that we have the--a reliable estimate, but certainly, we've 
already arrested close to 500, and we have hundreds of 
investigations that are still ongoing beyond those 500.
    Mr. Grothman. OK. I know Senator Johnson got a limited 
amount of video, and he is having his staff try to figure that 
out. I mean, we are about five months after this took place. We 
still don't know how many people were in the Capitol. You can't 
just give me that? Eleven hundred, 800? We don't know, huh?
    [No response.]
    Mr. Grothman. We don't know. OK. Of those people in the 
Capitol--well, I am under the impression that day that there 
are people who clearly, horrifically, did wrong things. We saw 
them on the video. They broke the windows. They broke in. But 
we also remember seeing people on TV that day who were almost 
let in the Capitol.
    Could you break down--give me numbers broken down in those 
two areas, the number who broke their way into the Capitol and 
the number that appeared to almost be escorted in by the 
Capitol Police?
    Mr. Wray. I'm not sure I could give you reliable numbers on 
that, sitting here right now. But I--maybe let me try it this 
way. When we look and we step back and we look at January 6 as 
a whole, you have one group of people who didn't breach the 
Capitol, didn't enter unlawfully into the Capitol, didn't 
commit acts, who were sort of peaceful rowdy protesters. Those 
are not people that are we pursuing.
    And then there's a second group, smaller, but still very 
sizable, who were in the moment engaged in all sorts of 
criminal behavior of the sort that you're describing. And those 
people are being prosecuted for a variety of offenses.
    And then there's a third group, which, while the smallest, 
is by far and away the most serious. And those are the people 
who were clearly coming with intent to commit very serious 
mayhem, who brought all sorts of weapons and protective gear 
and other things with them. And those are the people who face 
the most serious charges.
    And so I sort of look at it as a kind of inverse pyramid, 
with the most serious people being the smallest group. But all 
of them are--it's a sizable number, obviously. We've already 
indicted 30-something for conspiracy charges alone.
    Mr. Grothman. Yes.
    Mr. Wray. And as I said, investigations are ongoing.
    Mr. Grothman. I want to focus a little bit on the people 
who didn't do any physical damage, didn't engage in any 
physical contact with the police, and at least appeared to me 
that day to be allowed in the Capitol. Are there people like 
that?
    Mr. Wray. Like that, who were--who were in the Capitol?
    Mr. Grothman. Correct. As I recall, watching TV that day, 
there were people who it appeared were walking in the door, and 
it appeared as though the Capitol Police, perhaps out of 
exhaustion, for whatever motivation, allowed people to walk in 
the Capitol. Are there people like that?
    Mr. Wray. Well, I--you know, at any given moment, you might 
have somebody caught on a particular stretch of video walking 
along in a way that's unremarkable. I really can't speak in a 
broad categorical way about--about intent of individual people.
    Mr. Grothman. Well, people back home are concerned about a 
certain class of person. I want to know whether you feel these 
people existed. Were there people allowed in the Capitol who 
didn't engage in any physical confrontation or do any damage 
and just wound up in the Capitol, breaking the law, but they 
would have no idea--way of knowing they are breaking the law. 
Were there people like that?
    Mr. Wray. I really can't give you an assessment of that at 
this stage. That's why we're investigating. And that sometimes 
investigations lead to charges, and sometimes they don't. If 
there are people as you described, that would----
    Mr. Grothman. Have you arrested--you talked about all the 
500 people that have been arrested. Are any of those people you 
arrested, would they be included in the type of people I just 
described?
    Mr. Wray. I really can't say. What I would say is that 
people who have been arrested have been arrested because they 
violated Federal criminal law, and there were sufficient facts 
to support the elements of the offense.
    Mr. Grothman. OK. I am running out of time.
    Mr. Wray. The prosecutor felt confident they could prove it 
beyond a reasonable doubt.
    Mr. Grothman. Yes, I am running out of time. So I want to 
ask you one more question. Were people arrested who walked in 
the Capitol, had--perhaps had no reason to know they were 
breaking the law and were, as one Capitol policeman described 
it to me, just milling around? Were people like that arrested, 
and are they still in jail?
    Mr. Wray. I can't speak to any specific case. So I really 
am not sure that I can answer the question.
    Mr. Grothman. Well, even one.
    Mr. Wray. We've had 500--we've had 500 arrests, and they 
range in all sorts of variations in facts and circumstances.
    Chairwoman Maloney. The gentleman's time expired. The 
gentleman from Virginia, Mr. Connolly, is now recognized.
    Mr. Connolly. Thank you, Madam Chairwoman.
    And Mr. Wray, thank you for those 500 arrests, and I hope 
there are 500 more. I hope everyone who participated in this 
outrage is held to account and brought to justice.
    I might also say, Madam Chairwoman, listening to our 
colleagues on the other side of the aisle reminds me of the 
musical ``Chicago,'' where Richard Gere says when you can't win 
an argument, razzle-dazzle them. Distract them. Do the shuffle. 
Talk about Fauci. Talk about masks.
    Talk about anything but a violent insurrection that cost 
seven lives, five here and two suicides because two cops 
internalized the failure that occurred on January 6 on 
themselves.
    Ignoring that, distracting it, denying it, gaslighting it, 
calling it just a bunch of tourists who got a little carried 
away is repugnant and a dishonor to the memories of those who 
did die and a dishonor and disrespect to those who were willing 
to put themselves at risk on our behalf and, more importantly, 
on that of the republic for which we stand.
    Mr. Wray, Director Wray, January 5, the field office in 
Norfolk issued an intelligence report warning of online threats 
discussing specific calls for violence against Congress the 
next day on January 6. Words like ``be ready to fight,'' ``get 
violent,'' ``get ready for war.'' It also stated, ``We get our 
President, or we die. Nothing else will achieve this goal.''
    According to previous congressional testimony you have 
given, this report was shared in an email with other law 
enforcement agencies. But for some reason, the report did not 
make it to the high-level officials who needed to see it, 
despite its alarming content. Is it true that you did not see 
this report until after the 6th?
    Mr. Wray. Congressman, I think the report you're referring 
to is not an intelligence report, but what we refer to as a 
situational information----
    Mr. Connolly. It was--it was a report from your field 
office in Norfolk, I believe.
    Mr. Wray. Correct. Correct. Yes, our Norfolk and----
    Mr. Connolly. Yes. But even so, it is pretty alarming.
    Mr. Wray. Absolutely. Now it's raw, unverified information 
not attributed to a specific individual online, but----
    Mr. Connolly. But how--but Mr.----
    Mr. Wray [continuing]. I would say it was alarming enough, 
it was alarming enough that we took steps to share it not one, 
not two, but three different ways with our partners here in the 
National Capital Region. One was with an email to their 
representatives on our Joint Terrorism Task Force, who are 
there precisely to be their eyes and ears so everybody makes 
sure we have the same information.
    Mr. Connolly. So----
    Mr. Wray. Second, it was briefed orally, orally to the 
members of the Joint Terrorism Task Force, including members of 
the Capitol Police who, again, were there. And then, third, on 
our law enforcement portal, which exists for the very purpose 
to share information with our partners about potential threat 
information.
    Mr. Connolly. Did anyone alert the Capitol Hill police 
chief at the time, Steven Sund, to the existence of this very 
alarming field report?
    Mr. Wray. I'm not aware of whether he was alerted by 
anybody in his own department or elsewhere. But certainly, it 
was shared with the Capitol Police.
    Mr. Connolly. But you are aware of the fact that that 
police chief, former police chief, in fact, has testified he 
was not made aware of it before the 6th?
    Mr. Wray. I'm not sure that I'm completely up on what 
former Chief Sund has or has not testified.
    Mr. Connolly. OK.
    Mr. Wray. I really wouldn't want to characterize it.
    Mr. Connolly. Was the Senate Sergeant at Arms, Michael 
Stenger, or the House counterpart, Paul Irving, made aware of 
this report prior to January 6?
    Mr. Wray. I don't know the answer to that.
    Mr. Connolly. Would you agree that if they weren't and they 
both testified--they all testified they weren't, that in 
retrospect, they should have been and that that field report 
should have been elevated to the highest level of concern, 
given what was happening here in the Capitol and given the 
words that were being used and the high Internet traffic in 
which the phrase ``storm the Capitol,'' in fact, frequently 
occurred?
    Mr. Wray. You know, Congressman, it's hard for me to 
evaluate with the lens of 20/20 hindsight how each of them 
should run their departments. I do think that we tried very 
hard to--using the established processes to get the information 
to the partners who need to have it. And like I said, not 
leaving it to chance, not one, not two, but three different 
ways.
    But certainly, we're going to be looking hard on our end to 
figure out are there better ways for us to share information 
beyond the ways that we have been doing it as we go forward.
    Mr. Connolly. I wish I had more time to explore that with 
you. I hope somebody will.
    Thank you. Thank you, Madam Chairwoman.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Ohio, Mr. Jordan, is now recognized.
    Mr. Jordan. Thank you, Madam Chair.
    The previous speaker from Virginia said ``talk about 
anything, but.'' That is exactly what the Democrats are doing. 
That is exactly what they are doing. They don't want to talk 
about the crisis at the border. We have yet to have a hearing 
in this committee, the Government Oversight Committee, about 
the crisis at the border.
    They don't want to talk about the huge increase in crime 
because Democrats all over this country in municipalities and 
cities are defunding the police. They don't want to talk about 
inflation, the increased price of gas.
    They don't want to talk about the fact that every single 
employer I talk to in our district--I bet it is the same in 
yours--can't find people to work. Because when you pay people 
not to work, you shouldn't be surprised when you don't have 
workers.
    They don't want to talk about their bill that they 
introduced in the Judiciary Committee to pack the court. They 
don't want to talk about the fact they are going to raise 
taxes, they are going to ban firearms, and they are getting 
ready to hire more agents at the IRS to harass American 
citizens. We saw just a week ago when tax returns, against the 
law, were leaked to the press.
    They don't want to talk about--they want another Trump 
investigation. Here is what the--here is what the chairwoman 
said in her opening statement just this morning. ``The 
committee released documents we obtained showing that the weeks 
leading up to the January 6 attack, President Trump repeatedly 
pressured the Department of Justice.'' ``Pressured the 
Department of Justice,'' they say.
    And in their press release, they say, ``The White House 
Chief of Staff pressured DOJ.'' Let us look at what the White 
House Chief of Staff said. He sent an email to Mr. Rosen, the 
Acting Attorney General. ``Can you have your team look into 
these allegations of wrongdoing?''
    Wow, lot of pressure there. Wants him to look into 
something. Every Chief of Staff, I bet, for every single one of 
us sends the same kind of emails and letters every day. You get 
constituents, you get people call you, you send it to the 
agency. ``Can you look into this?''
    Let us see what else Mr. Meadows had to say. Sent a YouTube 
link. Imagine. I bet we have had some of our Chiefs of Staff 
send YouTube links to colleagues and to people in the agency. 
Wow, that is pressuring the----
    How about this one? ``There have been allegations about 
signature match anomalies in Fulton County, Georgia. Can you 
get Jeff Clark to engage on this issue immediately if there is 
any truth to this allegation?'' Boy, that is a lot of pressure 
there. Mark Meadows, putting a lot of pressure on people, 
asking can you look into this allegation? Someone's raised it.
    After all, lots of Americans, 80, 90 million Americans had 
concerns with the election. But what are the Democrats doing? 
They are going to launch another investigation, call in five 
people for depositions. But we can't have the head of the 
Capitol Hill Police here today like we wanted?
    Oh, it is interesting, too, the response that the Attorney 
General gave to Mr. Meadows when he sent that email. I think 
this is interesting. He says, ``I can't believe this. I am not 
going to respond to the message below.'' Wow. Wow, that is a--
that is a problem.
    When the President--when the Chief of Staff to the 
President of the United States asks someone in the executive 
branch to do something, and they basically give him the finger, 
I think that is the problem we should be looking into. But that 
is not what the Democrats are going to look into.
    Nope, they have got another investigation. We can't talk 
about the border crisis here. We can't have--we haven't had one 
hearing in this room about that. Can't do that.
    They want to investigate Trump again, even though the Obama 
Department of Justice spied on President Trump's campaign, lied 
to the FISA court 68 times. Not Jim Jordan, that is Inspector 
General Horowitz, 68 times in the Carter Page FISA alone. We 
can't look into those issues. We are going to do another 
investigation about pressuring people by sending emails to the 
Justice Department. Somehow that is now pressuring.
    So I appreciate our witnesses coming here today. But when 
the chairwoman raised that in her opening statement, sends out 
a big press release saying they are going to do this, it just 
again underscores that this committee is not doing what it 
should do.
    I will say it again. The fact that we have yet to have a 
hearing on a situation on our Southern border where, for not 
one month, not two months, but three months in a row, we have 
set record numbers of illegal immigrants coming into this 
Nation, and we can't have a hearing in this committee. But we 
are going to investigate Mark Meadows sending an email to the 
Justice Department, saying, hey, there's been allegations 
raised. Can you check it out?
    Wow, wow. The taxpayers are going to love the work that we 
are going to do with this. They are going to love it. This is 
ridiculous. What the Democrats pretend to be the work of 
Congress now is ridiculous. New investigation about Mark 
Meadows asking someone to look into--I yield back. That is 
enough.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Illinois, Mr. Krishnamoorthi, is now recognized.
    Mr. Krishnamoorthi. Director Wray, when we last spoke on 
April 15 at a House Intelligence Committee hearing, you 
testified as to the following, ``I think there have been some 
instances where you have nonstate actors who have offered 
different kinds of support to domestic violent extremists here 
in this country.'' You continue to believe that, right, Mr. 
Wray?
    Mr. Wray. Yes, my testimony from our prior exchange remains 
the same.
    Mr. Krishnamoorthi. Yes, sir. And the FBI has been 
investigating this issue of the foreign funding of domestic 
violent extremists. Correct?
    Mr. Wray. Well, foreign funding. Certainly, different kinds 
of interaction. I'm not sure that I could specify funding 
sitting here right now, but we are very focused on the 
interplay between different types of, as you said, nonstate 
actors overseas and domestic terrorists here in the United 
States.
    Mr. Krishnamoorthi. On January 14, Yahoo News highlighted a 
report on the issue of DVE funding from a company called 
Chainalysis. According to this report, one month before January 
6, a French donor, ``lamenting the decline of Western 
civilization,'' sent approximately $250,000 in bitcoin to an 
individual named Nick Fuentes.
    Why Nick Fuentes? Nick Fuentes, who has been suspended from 
YouTube for hate speech, is a self-proclaimed leader of the 
group Groypers, a white supremacist group opposed to 
immigration and minorities. The Anti-Defamation League 
confirmed that many of Groypers' members were at the Capitol on 
January 6, including Nick Fuentes himself.
    Here is a picture of Mr. Fuentes from his Twitter account 
on that day. The circle is around Mr. Fuentes himself. Pro 
Publica documents that members of Groypers breached the Capitol 
that day as well.
    Mr. Wray, here is what we know. A foreign actor sent 
$250,000 in bitcoin to the leader, Nick Fuentes, of a far-right 
extremist group, Groypers, in the lead-up to January 6. We also 
know from NBC News from January 16 reporting that the FBI is 
investigating this particular transaction involving Nick 
Fuentes.
    Sir, you can't rule out that other far-right extremist 
groups received foreign donations in the lead-up to January 6, 
can you?
    Mr. Wray. Not only would I not want to rule it out, but 
certainly the possibility of foreign funding or support for 
domestic violent extremism is something that's particularly 
high on our priority list because of the challenges it poses. 
You mentioned bitcoin.
    Mr. Krishnamoorthi. And you can't--you can't rule out----
    Mr. Wray. Certainly, that's part of the concern.
    Mr. Krishnamoorthi. Yes, sir. You can't rule out that 
foreign financing helped fund activities related to January 6, 
right?
    Mr. Wray. Correct. I'm not sure we've seen that at this 
stage, but I certainly wouldn't purport to have ruled it out.
    Mr. Krishnamoorthi. OK. That is very disturbing that 
foreign actors may have helped fund activities connected to the 
January 6 insurrection.
    I want to turn your attention to another topic. Director 
Wray, you became the FBI Director in 2017, right?
    Mr. Wray. In August 2017.
    Mr. Krishnamoorthi. We recently learned from Apple 
Corporation that in early 2018, the company received a 
subpoena, including a Federal gag order, requesting electronic 
metadata related to House Intelligence Committee members, 
staffers, and family members. This is in connection with a DOJ 
leak investigation.
    You have heard about this investigation and these 
subpoenas. Correct?
    Mr. Wray. I've been reading about them in the press, yes.
    Mr. Krishnamoorthi. Well, CNN reports, ``The leak hunt 
began when the FBI sent a subpoena to Apple in February 2018.'' 
You don't dispute that report. Correct?
    Mr. Wray. I really can't discuss a specific investigation. 
I really don't want to get out in front of the Justice 
Department on this.
    Mr. Krishnamoorthi. And----
    Mr. Wray. You know, decisions about subpoenas are really 
best directed to them.
    Mr. Krishnamoorthi. And the FBI interviewed witnesses in 
connection with this leak investigation. Correct?
    Mr. Wray. Again, sir, I really can't discuss any specific 
investigation.
    Mr. Krishnamoorthi. I am not asking you to discuss any 
specifics of the investigation, but the FBI was involved with 
these investigations. Correct?
    Mr. Wray. When there are leak investigations, typically the 
FBI is the investigative agency. Correct. Other than that, I 
really can't----
    Mr. Krishnamoorthi. Good. That is the--that is what we 
thought. The FBI was involved with this investigation.
    Now, sir--and this is during the time that you are the FBI 
Director. Did you ever discuss the Apple subpoenas with Jeff 
Sessions?
    Mr. Wray. Congressman, I understand the question. I really 
don't want to get out of the Justice Department on this. As you 
know, the Attorney General issued a statement on it, and I'd 
refer to----
    Mr. Krishnamoorthi. Sir, you are just being asked a simple 
``yes'' or ``no'' question. Did you discuss the leak 
investigation with Jeff Sessions?
    Mr. Wray. Congressman, again, respectfully, I'm not trying 
to be difficult here. But the Inspector General has been asked 
to look into this. I have a very good working relationship with 
both the Inspector General and----
    Mr. Krishnamoorthi. Sir, you are being evasive. These are 
``yes'' or ``no'' questions, sir.
    Mr. Wray [continuing]. The Attorney General.
    Mr. Krishnamoorthi. You are under oath. These are ``yes'' 
or ``no'' simple questions that we need to get to the bottom 
of. Sir, serving these secret subpoenas----
    Voice. Time.
    Mr. Krishnamoorthi [continuing]. To collect records on 
Members of Congress is something we would expect in Putin's 
Russia, not the United States. And sir, your involvement needs 
to be probed, just like everyone else's.
    Thank you.
    Chairwoman Maloney. The gentleman's time has expired. The 
gentleman from Texas, Mr. Sessions, is recognized for five 
minutes.
    Mr. Sessions. Chairwoman, thank you very much. And I want 
to thank each of the witnesses that chose to appear today. I am 
disturbed that the Acting Chief of the U.S. Capitol Hill 
Police, who was in charge of intelligence, did not show today.
    Director Wray, thank you very much for agreeing to come and 
be a part of this hearing. Thank you for the professionalism 
that the Federal Bureau of Investigation has been a part of, as 
well as the United States Army and the men and women that were 
under the command of General Flynn and Walter Piatt, too. And 
we thank you.
    I would like to, if I can, take just a second with Director 
Wray, and without being very specific, I believe that you would 
be well into what might be called the management of this long 
investigation. This is one of the largest investigations in the 
history of this country. Is that correct, sir?
    Mr. Wray. Certainly, it's one of the most far-reaching and 
extensive that I can think of.
    Mr. Sessions. During my history of watching the Federal 
Bureau of Investigation, the FBI would like to get it right, 
and they will take their time and not try and cut a corner or 
shirk tasks. Do you believe that is still true about the 
Federal Bureau of Investigation?
    Mr. Wray. Yes, sir. I believe very strongly, and my message 
to our folks since the day I arrived and continuing ever since 
is that we need to make sure that we don't just do the right 
thing, that we do it in the right way. And that the FBI's 
brand, if you will, is based in large part on the way we do our 
work, which is painstakingly, professionally, and objectively. 
And that's what I expect of all 37,000 men and women at the 
FBI.
    Mr. Sessions. Do you believe that you would come under 
political pressure from leading Democrats on this committee who 
want you to arrest 500 more people, that you would think that 
you should go out and do that as a result of political pressure 
being placed on you by senior Democrats of this committee?
    Mr. Wray. Congressman, I don't--I don't feel any pressure 
from members of either political party. My intention is for us 
to investigate professionally, objectively, with proper 
predication, following the facts under the law wherever they 
may lead, no matter who likes it.
    Mr. Sessions. Mr. Wray, I believe that what you have said 
to me I believe is true and correct, and that is the Federal 
Bureau of Investigation would not feel that they were under 
political pressure by senior Democrats to have you do something 
that, in fact, the Bureau knew might not be correct. So I will 
answer that for you. I think you answered that way.
    Do you believe that you would be well within your ideas to 
say that this may take a little bit longer, and there will need 
to be trials, and the trials will develop the facts of the 
case. And as people have their opportunity to be a part of a 
trial, that they will either plead guilty or be found guilty 
and that that will be the point at which we would then know the 
truth, the whole truth, and nothing but the truth?
    Mr. Wray. Yes, sir.
    Mr. Sessions. I would like to ask you if you believe that 
this would really be the story that would be told, as opposed 
to ahead of time trying to place you and other members of--that 
work for the Federal Government in a diminished role at this 
time without knowing the full answer? I am sure you have got 
questions in your mind. Do you believe that it will help you 
put together a better story when you actually know based upon 
the outcome of trials?
    Mr. Wray. Well, absolutely. I've always, even when I was a 
line prosecutor, felt like I learned--I can't think of a trial 
I had where I didn't learn important things during the trial, 
even after a long, very meticulous investigation. And I would 
expect that to be true in the 500 or so cases that are at issue 
here.
    Mr. Sessions. Well, Mr. Wray, I want you to know that I 
believe that we are involved in a crisis in this country. We 
have been through one. I think January 6 was a very difficult 
time and a crisis.
    Do you believe that you have learned some lessons? You do 
not need to go into them. But that you will be able to help 
local law enforcement, as well as Capitol Hill Police, so that 
you can give them--before we get the after-action report, give 
them information that would secure our country better today, 
moving forward?
    Mr. Wray. I believe we've already learned some valuable 
lessons, and I expect we will continue to learn more. And we 
view the Capitol Police as terrific partners who have a very 
tough job to do, and we look forward to working with them.
    Mr. Sessions. Mr. Wray, I want to thank you, and I hope 
that you would know that every single member of this committee 
would hope, wish, and pray that the lessons that are learned 
you will be able to bring to bear to not only support the 
American people, but also the members of law enforcement to 
help them be better.
    And sir, I want to thank you for your time today, and may 
God bless you.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Maryland, Mr. Raskin, is now recognized.
    Mr. Raskin. Thank you, Madam Chair.
    Thanks to the witnesses for their service and their 
testimony.
    In an emergency, every minute matters. Vice President Pence 
escaped right-wing insurrectionists chanting ``Hang Mike Pence. 
Hang Mike Pence'' by one minute on January 6.
    The order to deploy the National Guard to the Capitol did 
not come until nearly 2 1/2 hours after the Capitol was first 
breached. That was at 4:32 p.m. on January the 6, when Acting 
Defense Secretary Miller gave verbal authorization for the D.C. 
Guard to deploy to the Capitol.
    Yet Major General William Walker, the commanding general of 
the D.C. National Guard on January the 6, has testified he was 
not informed of this authorization until 5:08 p.m., fully 36 
minutes later. As a result, the D.C. Guard did not arrive at 
the Capitol until 5:20 p.m., almost an hour after the initial 
green light was given.
    Lieutenant General Piatt, how do you account for this 36-
minute delay in transmitting the order for National Guard 
troops to move to the Capitol?
    General Piatt. Congressman, Secretary McCarthy, our records 
show that he called 4:35 p.m. after receiving that approval at 
4:32 p.m. There are discrepancies in the log and all the 
timelines as we merged all the reports.
    I can only account for that the troops were going through 
their final stages of boarding buses and getting ready to go. 
What they did was really a herculean effort to remission in 
that amount of time and be prepared to now go to meet a whole 
new mission of riot control at the Capitol.
    Mr. Raskin. OK, yes. But I am not talking about the troops 
here. I am talking about the 36-minute delay between when 
Walker received authorization and when the authorization 
originally came down. Well, let me put it this way.
    The documents received by the committee suggest it is 
unclear who finally told Major General Walker that he had 
approval to send the Guard to the Capitol or when that 
occurred. According to one document obtained by the committee, 
Army Secretary McCarthy personally notified Major General 
Walker at 4:35 p.m. that he was authorized to deploy. But 
according to the D.C. Guard's own timeline, this directive was 
relayed to Walker by Army Chief of Staff General James 
McConville.
    So, General Flynn, whose job was it to inform Major General 
Walker that he could deploy the Guard to the Capitol?
    General Flynn. Congressman, by authority it would have been 
the Secretary of the Army.
    Mr. Raskin. Well, how do you explain the discrepancies in 
these accounts from the Pentagon and the D.C. National Guard?
    General Flynn. Congressman, I--I cannot explain those 
discrepancies in the timelines. I think that as various 
timelines got merged, there is minutes off.
    Mr. Raskin. Well, how do you explain that 36-minute delay?
    General Flynn. Congressman, I can't explain that. What I do 
know in our timeline is at 1702, the buses began to deploy to 
the Capitol. That's when the movement started.
    Mr. Raskin. OK. So that would have been 30 minutes after 
Acting Defense Secretary Miller gave the verbal instruction. Do 
you think that that 32-minute delay is justifiable or 
acceptable in terms of getting the D.C. National Guard to the 
United States Capitol during the most serious siege and attack 
since the War of 1812?
    General Flynn. Congressman, I would say that the buses 
leaving at 1702 and organizing those soldiers on that 
transportation in riot control gear after they had changed 
mission from being merely in crowd control, and going from an 
unarmed force in a non-law enforcement mode to something very 
different and being put into the middle of a violent mob, I 
think that that accounts for that time, Congressman.
    Mr. Raskin. General, you closed your testimony by saying we 
must address the circumstances that allowed this to happen. 
What circumstances are you referring to there?
    General Flynn. The circumstances I'm referring to, 
Congressman, is when I look back at what happened here, there's 
four things in planning that we could have done and we should 
have done.
    The first one, there should have been clearly a lead 
Federal agency designated. The second one is we should have had 
an integrated security plan. The third one is--and much of this 
has been talked about already--is information and intelligence 
sharing on criminal activities before the 6th of January. And 
then the fourth one would have been we should have pre-
Federalized certain National Guard forces so that they could 
have immediately been moved to the Capitol and had those 
authorities in place before this happened.
    Mr. Raskin. OK. Well, I see my time is up. Thank you for 
your testimony, gentlemen, and I yield back, Madam Chair.
    Chairwoman Maloney. The gentleman yields back.
    My colleagues, votes have been called on the floor, but we 
are going to keep the hearing going to ensure that all members 
have an opportunity to ask questions. So members are encouraged 
to ask questions during the vote series, if possible. We can 
stagger that and just keep the hearing going.
    I now recognize the gentleman from Ohio, Mr. Gibbs. You are 
now recognized, Mr. Gibbs.
    Mr. Gibbs. Thank you, Madam Chairwoman.
    Director Wray, with all the chatter I think that was going 
around on social media and the Internet previous days to 
January 6, were you aware there was chatter out there? Director 
Wray?
    Mr. Wray. There was a variety of social media chatter, yes, 
sir.
    Mr. Gibbs. And then also your Norfolk report, it is just 
like an unbelievable intelligence failure, it seems like. And 
it is inconceivable to me that there wasn't briefings with 
leadership here in the Congress and law enforcement. As 
Director of the FBI, you should be examining that, that 
breakdown, and so that never happens again.
    Has there been any arrests made on the people--persons that 
did the pipe bombs at RNC and DNC headquarters?
    Mr. Wray. No, we have not made arrests on that. We are 
aggressively investigating. We recently, you may have seen, put 
out additional higher-quality photos in an effort to see if we 
could get better information from the public on it. That's one 
of the investigations that we're particularly concerned about.
    Mr. Gibbs. Of the 500 people that have been arrested of 
January 6, do the charges, do they range from trespassing, 
disorderly conduct, assault, insurrection? What are the 
charges?
    Mr. Wray. Well, there are a variety of charges. I would 
probably better off to refer you to the Justice Department for 
the full list, but certainly, they have ranged from assaults on 
Federal officers to different kinds of obstruction offenses. 
We've had some conspiracy charges.
    I'm not sure I could give you a full catalogue.
    Mr. Gibbs. Has there been any insurrection charges?
    Mr. Wray. I don't believe so. But again, there have been 
close to 500 cases, but I don't believe so.
    Mr. Gibbs. And you know--have people been held in jail 
since their arrest on trespassing charges or minor charges are 
still--are they held in jail without due process?
    Mr. Wray. I don't believe anybody has been denied due 
process, sir.
    Mr. Gibbs. OK. I want to change the subject here a little 
bit. We have got this big issue with what happened with the 
COVID, the origins and the intelligence. And it was recently 
reported that three researchers at the Wuhan Institute of 
Virology became sick with COVID-19 like symptoms in November 
2019 and sought hospital care for their illnesses.
    Are you aware of any additional intelligence showing that 
COVID-19 pandemic was not the result of transmission from an 
animal to a human, but instead was result of a leak from the 
Wuhan Institute of Virology?
    Mr. Wray. Congressman, I certainly understand, of course, 
the interest in the topic. As you may have seen, the 
intelligence community is doing a deep dive on the subject and 
has not reached a definitive conclusion. And what there is that 
we're looking at is, of course, heavily interwoven with 
classified information. So I'm not really sure there's a whole 
lot I can say right now at this point. But obviously, we are 
working very hard, and a lot of people cross the intelligence 
community working on it at the same time.
    Mr. Gibbs. But you are not saying--there could be 
intelligence to that. OK.
    What is the FBI doing to investigate the origins of COVID-
19, given that the Chinese government has engaged in a 
widespread cover-up of its origins?
    Mr. Wray. Again, I can't discuss a specific investigation, 
as I've said in connection with other responses. But as you may 
know, I've tried to be very vocal and intend to remain very 
vocal during my tenure as FBI Director about the threat posed 
by the Chinese Communist Party and the Chinese government in 
particular. And the FBI is actively engaged with our partners 
in the intelligence community on the assessment that has been 
called for by the Director of National Intelligence.
    Mr. Gibbs. Are you aware of any U.S. research funding to 
the Wuhan Institute was diverted to conduct research for the 
Chinese military, given that the State Department just reported 
that such research has been conducted there since 2017?
    Mr. Wray. Again, Congressman, we are going into all the 
facts and information that we have available to us as an 
intelligence community, with the FBI as an active participant. 
And that's really all I can say on this subject at this point.
    Mr. Gibbs. I know in previous questions you were asked 
about the Portland and Seattle riots last--last summer, and you 
couldn't tell us how many people the FBI has arrested and 
convicted and what the charges were, especially on the siege on 
the--on the Federal courthouse out there and also holding large 
areas of the cities hostage. So are these FBI investigations 
still going on, or has it changed since the new administration?
    Mr. Wray. No. We continue to investigate just as 
aggressively on our end as before. Again, I don't have exact 
numbers for you, but I know that last time I checked, I think 
we had on the FBI side--or at least on the Federal side--about 
100 arrests in Portland alone. And then there were about, I 
think, 800 maybe local arrests. But that information may have 
changed or since my last report.
    Mr. Gibbs. Thank you.
    Mr. Wray. That's just Portland. That's just Portland, not 
nationwide. Portland.
    Mr. Gibbs. Thanks, Director Wray. I am out of time. Yield 
back.
    Mr. Higgins. Madam Chair? Madam Chair? Parliamentary 
inquiry. Yes, ma'am. How is----
    Ms. Norton. [Presiding.] The gentleman is recognized.
    Mr. Higgins. Thank you, Madam Chair.
    How is a member expected to meaningfully participate in 
this very important committee hearing while we are walking back 
and forth from the Capitol to cast votes, which are in 20-
minute blocks. Those of us that do not participate in what we 
to believe to be unconstitutional proxy voting, how does the 
chair expect us to participate meaningfully in this committee 
while we walk back and forth from the Capitol to vote? It is a 
serious question.
    Ms. Norton. Yes, this is not a parliamentary inquiry. We 
are keeping this committee hearing going while allowing members 
to go to vote, or else we will be here all night.
    The gentleman from--the gentleman from----
    Mr. Higgins. Is there some--is there some hesitancy to 
devote the time that is required for this very important 
hearing, Madam Chair?
    Ms. Norton. Sir, we are devoting all the time that is 
required, but members have to vote. They need to go to vote.
    Mr. Higgins. Which is exactly why we should adjourn. I 
object to that not happening, and I would like it on the 
record.
    Ms. Norton. The gentleman's request is denied. The 
gentleman from California, Mr. Khanna, is recognized for five 
minutes.
    Voice. Was that an official move to adjourn?
    Mr. Khanna. Thank you, Madam Chair----
    Voice. Did you move to adjourn?
    Mr. Khanna [continuing]. For your leadership. Thank you, 
Director Wray, for your service.
    Director Wray, you have told House committees that you need 
to look hard at what happened. You are committed to doing 
better. You told Chairwoman Maloney that you have to bat 1,000 
percent and even one mistake is unacceptable, and you will make 
sure this never happens again.
    Voice. Madam Chair, I move to adjourn.
    Mr. Khanna. Madam Chair, if I could pause?
    Mr. Higgins. There has been a motion, Madam Chair.
    Mr. Raskin. It is not floor.
    Ms. Norton. The gentleman is not recognized. It is Mr. 
Khanna's time.
    Mr. Khanna. You know, Madam Chair, we had an insurrection. 
We don't need disruptions here. Can we allow the democratic 
process to continue, please?
    Voice. Some of our members would like to hear the complete 
testimony.
    Mr. Khanna. Well, I think that we should follow the rules.
    Voice. The rules state that if there is a motion to adjourn 
that we have to have a vote immediately.
    Ms. Norton. The gentleman is out of order and has not been 
recognized.
    Mr. Comer. Madam Chair, we have a motion on the floor, a 
motion on the floor.
    Mr. Raskin. Regular order. Regular order.
    Ms. Norton. The gentleman will suspend.
    Mr. Comer. Regular order is there has been a motion made, 
and we vote on the motion.
    Mr. Khanna. Madam Chair, may I continue my line of inquiry?
    Ms. Norton. The gentleman--Mr. Khanna will continue.
    Mr. Khanna. Thank you, Madam Chair.
    Director Wray, you have said that you have to bat 1,000 
percent, that there is no room for a mistake. But Director 
Wray, instead of speaking in generalities, you know, I mean, if 
there was a football coach after a losing season who gave those 
generalities, that wouldn't cut it with the American public. So 
I want to drill down on specifics.
    Was this an intelligence failure on the part of the FBI? 
Director Wray?
    Mr. Wray. I wouldn't describe it that way. But I would say 
that we consider what happened on January 6 to be unacceptable. 
We share the----
    Mr. Khanna. No, I don't want the generalities, sir. I don't 
want the platitudes. I want the specifics of what went wrong, 
like someone would say our quarterback didn't throw correctly. 
We didn't have enough defense. What are the specifics? Don't 
give me any platitudes.
    Did the FBI have any intelligence that was actionable about 
what happened on January 6, yes or no?
    Mr. Wray. To my knowledge, sir, we did not have actionable 
intelligence that indicated that hundreds of people were going 
to breach the Capitol.
    Mr. Khanna. So wouldn't this be an intelligence failure if 
you did not have actionable intelligence and if the CEO of 
Parler knew what was going on, and half of social media and 
half the folks who were on the Internet knew what was going on? 
Wouldn't you describe that as an intelligence failure?
    Mr. Wray. Well, I'm not trying to quibble on terminology, 
sir. I guess what I would just say to you is that anytime there 
is an attack, we consider that to be unacceptable, and we're 
determined to try to get better sources so we can have more 
information----
    Mr. Khanna. But wouldn't you say that you need to get--do a 
better--would you say you need to do a better job getting 
intelligence on these kind of attacks?
    Mr. Wray. Yes, sir. I would say that, and I'm glad you 
raise that.
    Mr. Khanna. Great.
    Mr. Wray. Because that's one of the things, if you want to 
sort of take it out of the realm of what you're calling 
platitudes, that's one of the things that we are particularly 
focused on is how can we develop better human sources to 
anticipate things like this? That's one.
    How can we develop better data analytics?
    Mr. Khanna. Was there a failure--did you have any 
intelligence which you failed to act on, or is it your 
testimony that there was no actionable intelligence?
    Mr. Wray. I am sitting here right now, recognizing that 
this is, as has already been discussed, a sprawling 
investigation, I am not aware of any actionable intelligence 
that we failed to pass on.
    Mr. Khanna. You spoke about how----
    Mr. Wray. But again--yes?
    Mr. Khanna [continuing]. How you were surprised that there 
were no individuals who were arrested of the 500 that you had 
investigated. I was shocked. I said how is it possible that you 
have 500 of these individuals who have never been investigated 
by the FBI? Does it concern you that none of the people who 
were arrested were on your radar at the FBI?
    Mr. Wray. Well, two things. One, I think I said almost 
none, not none.
    Mr. Khanna. You did.
    Mr. Wray. Second, certainly--second, certainly the 
investigation is ongoing, and facts will develop further as we 
go forward. But third----
    Mr. Khanna. Did you have----
    Mr. Wray. Yes, but third, yes. Yes. That is one of the 
things that I view as most important to us, which is we 
obviously had lots of very well-predicated important 
investigations that we were conducting, and yet there were 
still----
    Mr. Khanna. Did you have any investigations--sir, my time 
is running out. I don't want to be rude, but did you have any 
investigations on Oath Keepers, Proud Boys, or Three 
Percenters?
    Mr. Wray. I know we had investigations related to 
individuals connected with some of those groups. I can't, 
sitting here right now, separate in my head which 
investigations were before January 6, which ones were after.
    Mr. Khanna. Do you think, in retrospect, you should have 
paid more attention in intelligence to some of the white 
supremacist and extremist groups and that there was not 
sufficient intelligence done on those groups?
    Mr. Wray. I'm not sure I would go that far, and let me just 
tell you why. We have, during my time as Director, dramatically 
increased--I think doubled--the number of investigations that 
we have been conducting specifically into what we call racially 
motivated violent groups----
    Mr. Khanna. But you don't think if there were all these 
arrests--sir, I am sorry to interrupt. But you don't if there 
were all these arrests and none of them were people or almost 
none were people that you had investigated, and half the 
Internet is talking about these folks and knows about these 
folks, that the FBI needs to do a better in getting 
intelligence?
    And then let me just ask this final question, which you can 
ask, if you knew before January 6 what the FBI knows now about 
the militia groups conspiring to attack the Capitol, would the 
Government have been able to thwart this attack?
    Mr. Wray. Well, on the first part, I think I've been very 
clear consistently that I think the FBI needs to do better, and 
we're determined to do better. On the second part, it's hard 
for me to answer a hypothetical. Certainly, if we had 
information that we've been developing in our investigations 
since January 6 before January 6, I have to believe we would 
have been able----
    Mr. Khanna. And Director Wray, does it make your job harder 
when some of the lawmakers in this body are praising the 
protesters, some even saluting with a clenched fist the 
protesters? Does that make the job of the FBI harder to get 
after those who harmed our democracy?
    Mr. Wray. I guess the best way for me to answer that is I 
certainly understand why you're asking the question. But I 
think it's best for me, as FBI Director, to speak through our 
work and not to be weighing in on in commentary on specific 
people's rhetoric. But I certainly understand why you're asking 
the question.
    Mr. Khanna. And I appreciate your service, sir.
    Ms. Norton. The gentleman's time has expired. The gentleman 
from Arizona, Mr. Gosar, is recognized for five minutes.
    Mr. Gosar. Thank you, Madam Chair.
    Director Wray, I would like to start by again asking for 
all the surveillance footage from January 6 and the preceding 
days to be released to the public. I am told there are 
thousands of hours of footage.
    Now, Director Wray, yes or no, would you agree that the 
public has a right to know the truth and that the information 
and footage should be made public?
    Mr. Wray. The information we produce has to be done in 
coordination with the prosecutors----
    Mr. Gosar. Well, yes or no? I mean----
    Mr. Wray. Well, I don't--sir, respectfully, I don't think 
it is a ``yes'' or ``no'' question.
    Mr. Gosar. Well, OK. So----
    Mr. Wray. We have to be very careful to protect the 
integrity of the ongoing cases, and there are very specific----
    Mr. Gosar. Well, let me recapture my time here. Democratic 
members, and you just heard, of Congress have made some 
outlandish allegations about reconnaissance tours and even 
filed ethics complaints against Members, including me, which 
was recently thrown out.
    Mr. Wray, would you agree, yes or no, that the video 
footage is often the best evidence documenting an event?
    Mr. Wray. Video footage is often very useful information to 
document an event.
    Mr. Gosar. Thank you. Director Wray, do you believe that 
security footage of a public building of public officials, paid 
for by public taxpayers, potentially containing exculpatory 
evidence should be provided to public defenders?
    Mr. Wray. Well, I think what information is provided to 
public defenders in criminal cases should be done under the 
rules of discovery, which are spelled out and are more 
complicated than I could cover in the time that we have here.
    Mr. Gosar. OK. Well, thank you. I appreciate it.
    Director Wray, now switching points. Can you confirm that 
no one inside the Capitol on January 6 was arrested for 
carrying or using a firearm?
    Mr. Wray. Sir my understanding is that there has been at 
least one individual who was arrested for having a firearm 
inside the Capitol. There are, I think, a small number of other 
cases, local cases. By that, I mean MPD who has----
    Mr. Gosar. Can you provide--can you provide that 
information for us in written testimony, please?
    Mr. Wray. I'm happy to have my staff followup with yours to 
get you this information----
    Mr. Gosar. Thank you. I appreciate that.
    Director Wray, can you confirm that nobody arrested for the 
involvement in the January 6 riot has been charged with the 
crime of insurrection?
    Mr. Wray. Sir, as I think I said in response to one of your 
colleagues, sitting here right now, I don't believe there have 
been insurrection charges in any of the indictments so far. But 
again, with 500 cases, I'd want to be sure that I would look--
--
    Mr. Gosar. I believe you are right. Yes, I agree.
    So I am now switching gears again. Director Wray, do you 
know who executed Ashli Babbitt?
    Mr. Wray. No, I don't know the name of the person who was 
involved in the Ashli Babbitt shooting.
    Mr. Gosar. OK. So do you agree that Ashli Babbitt was 
unarmed?
    Mr. Wray. No, I really can't weigh in on the facts and 
circumstances of that case. As you may know, that was 
investigated by the D.C. Metro's Internal Affairs Department 
with the DOJ Civil Rights Division and U.S. attorney's office, 
and the FBI was not the investigative agency.
    Mr. Gosar. Well, yes, it is disturbing. The Capitol Police 
officer that did the shooting of Ashli Babbitt appeared to be 
hiding, lying in wait, and gave no warning before killing her.
    Question again. Why hasn't that officer that executed Ashli 
Babbitt been named, when police officers around the country are 
routinely identified after a shooting?
    Mr. Wray. I can't comment on that case. It's not one that 
we've been directly involved in, so I really can't agree or 
disagree with your characterization.
    Mr. Gosar. Sounds good. Do you approve of lethal force 
against unarmed citizens, particularly a 110-pound woman, with 
no warning, no use of nonlethal force prior, and while lying in 
wait?
    Mr. Wray. I'm not going to try to answer a hypothetical, 
especially one based on a case that I just said I really can't 
discuss.
    Mr. Gosar. That actually wasn't a hypothetical. That is 
actually what happened.
    Changing gears again. Director Wray, the FBI released 
several 30-second video clips of a suspected pipe bomber, 
seeking the public's help to identify him. Two of the video 
clips begin and end with the suspect already in the middle of 
the frame.
    You know how long the suspected pipe bomber was there and 
which way he exited, but you have withheld that information 
from the public. The FBI is in possession of the full tapes of 
the pipe bomb suspect and knows far more than the public about 
potential identifying details. You have begged the public's 
help in identifying this pipe bomb suspect. You even offered a 
$100,000 reward.
    Why have you not released the full tapes if you truly 
intend to leverage the public's help? Will you commit to 
releasing the full tapes to the public immediately?
    Mr. Wray. No, sir, I can't make that commitment. I'm very 
careful about making sure that we protect the integrity of the 
ongoing investigation. And when we share information with the 
public while asking for their help, it has to be done very 
thoughtfully with regard to both the solicitation for 
assistance as well as, again, the protection of the integrity 
of the ongoing investigation.
    Mr. Gosar. Well, I appreciate it. Well, in conclusion, I 
again urge the Capitol surveillance footage and the truth to be 
released in order to exonerate the innocent and provide justice 
and accountability for those who violated it.
    I would like to ask for unanimous consent to enter into the 
record a report from Revolver News regarding infiltration[ET1] 
and incitement of the January 6 protest by Federal officials.
    Ms. Norton. Without objection.
    Mr. Gosar. I thank the chairwoman. And with that, I yield 
back.
    Ms. Norton. The gentleman yields back. I recognize the 
gentleman from Maryland, Mr. Mfume, for five minutes.
    Mr. Mfume. Thank you very much, Madam Chair.
    And through you, I thank Chair Maloney's holding this 
hearing. It is, indeed, important, and the fact that it is the 
second one does not belie the fact that we have a situation 
that we have not faced in 100 years. And so two hearings on 
this, in my opinion, is proper, if not insufficient, and I hope 
that we have another one next month, as I think I heard earlier 
today.
    I want to thank the generals here for their service to the 
country and for their testimony today. I want to thank Director 
Wray, and I want to thank also all the men and women of the 
FBI, famous and faceless, that we don't know all across the 
country that are doing their job at this hour.
    Director Wray, I was happy to hear that you have doubled 
the number of investigations that are underway for racially and 
ethnically motivated hate crimes against citizens, people who 
get up and their taxes every day. And so whether it is acts 
against African Americans or Latinos or Asian Americans, as it 
has been recently, or gay people or immigrants, I can only tell 
you that doubling those efforts is appreciated.
    And if you want to triple them, that would be appreciated 
because that is too much hate in this country, and too many 
innocent people are being affected by it.
    I want all of us for just a moment to remember context 
here. We are here today because we are all fortunate enough to 
get more votes than the other person, and we got elected. And 
we became Members of the House of Representatives, and we took 
an oath this past January. And in the oath, we said we swore to 
protect and defend the Constitution of the United States from 
all enemies, foreign and domestic.
    The domestic enemies that we saw on January 6 ought to be 
the sort of things that we focus on. I know I heard a lot of 
talk here about Hunter Biden's laptop and the border attacks 
and crossings and Black Lives Matter, a movement that I, by the 
way, support. And even heard references to COVID. This has got 
to do with the attempts by people to overthrow the Government 
of the United States of America, something that hasn't happened 
in well over 100 years, and it is not something that we can 
slough off.
    You know, too often we hold fast to the conclusions of 
other people. Sometimes we subject all facts to a prefabricated 
set of interpretations, and quite often we enjoy the comfort of 
opinion without the discomfort of thought. This requires 
thought. It requires action. It requires concentration, and we 
just can't slough it off and assume that it is not going to 
happen again.
    Most of you have heard the old story about Benjamin 
Franklin at the 1787 Constitutional Convention. When he walked 
outside after hours of deliberating, Ms. Powell, the woman who 
was married to the mayor at the time, said to him, ``Dr. 
Franklin, tell us, what have you given us? Is it a monarchy or 
a republic?'' And as you know, Ben Franklin replied, ``Ma'am, 
it is a republic, if you can keep it.''
    So that is what we are trying to do, keep our republic and 
to keep it from those who tried to overthrow this Government, 
who wanted to kill Members of Congress, who wanted to hang Mike 
Pence.
    All of you were in that gallery that day. I know I was. We 
saw what happened. Some of us made it back to our offices and 
places of lockdown. We knew at the time that this was 
unprecedented, and I hope we knew also that we have to find a 
way to make sure that it never, ever happens again.
    So I just want to make sure that we stay focused here. 
People all over the country are watching us. They know what 
this hearing is about. It is not about COVID-19. It is not 
about border crossings. It is not about Black Lives Matter.
    It is about a group of people who claimed to be tourists 
and who some of you have referred to as patriots and purists, 
when, in fact, they were and are, indeed, provocateurs, pent up 
with an anger and a determination to overthrow that republic. 
So being here is important, and hearing what everybody has to 
say is equally as important.
    You know, a Greek philosopher was once asked when would 
justice ever come to Athens. And he thought about it, and he 
replied back thoughtfully. Justice will never come to Athens 
until all of those who are not injured are just as indignant as 
all of those who are.
    This assault on our Capitol was an injury to millions of 
Americans, and we can never let it happen again.
    Madam Chair, I yield back any time I may have.
    Ms. Norton. The gentleman from South Carolina, Mr. Norman, 
is recognized for five minutes.
    Mr. Norman. Thank you, Madam Chair.
    Madam Chair, I have been sitting here three hours, and we 
basically--and I want to thank the witnesses for coming. But 
really, the people that should be here are not here. The 
witnesses, for the last three hours I have heard, cannot really 
answer any questions or explain anything about what happened 
because it wasn't in their chain of command.
    The ones that should be here are the Capitol Police. Where 
are they? They are not here. Where is the Acting Chief, former 
Chief Sund? The chair has subpoena power. Why isn't he here?
    Now I understand the chief now is Pittman. We are going to 
have her at another meeting. But she is not here now, and I 
guess what is shocking, we have had yet to have one hearing of 
all the crises that are going on in this country. Economic 
crisis, inflation is going through the roof. We have got a 
border crisis. Millions of people coming across unfettered, 
putting our police in danger, coming across the border. We 
don't know who they are. Not one hearing.
    Not one hearing on the energy crisis. You ask that citizen 
about filling up their car or truck with gas, what are they 
paying? Fifty percent more. Where is the hearing on that?
    Our national security crisis. Where are our hearings on 
what China is doing with their lab that is ongoing and with the 
investigation that is not happening on how the virus got here?
    Where is our budget crisis? This administration is spending 
this country into a debt that is going to be hard to recover 
from. Where is our meeting and our hearing on that?
    Where is our criminal crisis? As has been said, we have had 
cities all over this country destroyed to the tune of $2 
billion over the past 60 days. Where is our meeting on that? 
Where is our hearing?
    Yet here we sit for going on three hours over something 
that happened 160 days ago. We have yet to have one witness 
that really knows much of what is going on, and it is a shame 
for the American people. The taxpayers deserve better, and we 
see that the taxpayers see what is going on.
    This is a shell game. This is a dog-and-pony show to keep--
to try to keep the emphasis off the real things that are 
affecting real Americans all over this country. The taxpayers 
get it. The emphasis now is on anything but handling the 
crises.
    And we have an administration that has not had a 
meaningful, meaningful hearing where the press asked any 
question other than where--has the dog bitten anybody, or is 
the cat lost? And so, Madam Chair, this is an insult. This is 
something that I think the people are seeing through, and this 
is something that shouldn't happen. It is a waste of taxpayers' 
money, and it is a diversion that is not going to work. It is 
ridiculous.
    I yield the remaining part of my time back.
    Ms. Norton. The gentleman from Georgia, Mr. Johnson, is 
recognized for five minutes.
    Mr. Johnson. Thank you, Madam Chair.
    Director Wray, isn't it true that the FBI prepared a formal 
intelligence bulletin with a threat assessment before protests 
by Black Lives Matter protesters in Washington, DC.?
    Mr. Wray. Sorry, Congressman. I'm having a hard time 
getting a clear signal. Would you mind repeating the question?
    Mr. Johnson. I am sorry. Isn't it that the FBI prepared a 
formal intelligence bulletin with a threat assessment in 
advance of the summer 2020 protests by Black Lives Matter----
    Mr. Wray. I'm not aware of whether that's accurate or not, 
sir.
    Mr. Johnson [continuing]. [inaudible] In D.C., of course, 
whenever there is a high-profile rally on the Ellipse which is 
to be attended by the President of the United States. Correct?
    Mr. Wray. Sir, I know that when there are certain events 
that are specifically designated as NSSE events or so-called 
SEAR events, which is a decision that's made I think as part of 
Homeland Security, it is not unusual for the FBI to be asked, 
in connection with those events, to do a formal threat 
assessment. I'm not sure that I've heard in the instances here.
    Mr. Johnson. OK. Well, let me ask you this. Let me ask you 
this. The FBI did not produce a formal intelligence bulletin or 
a threat assessment in preparation for the January 6 
insurrection. Correct?
    Mr. Wray. Well, we did--we did produce, I think, a dozen 
plus intelligence products----
    Mr. Johnson. Well, a formal--a formal intelligence 
bulletin, you did not produce. Is that correct?
    Mr. Wray. Well, we may just be inadvertently talking past 
each other on specific terms for specific kinds of intelligence 
products. We certainly put out a number of intelligence 
products, finished intelligence products, including two joint 
intelligence bulletins that I can think of, as well as some 
others that were also intelligence products.
    Mr. Johnson. Now there is a difference between those 
briefings that you are talking about and a formal intelligence 
bulletin produced in conjunction with the Department of 
Homeland Security. Correct?
    Mr. Wray. Well, we did do formal intelligence bulletins 
with Department of Homeland Security. I know I can give at 
least two----
    Mr. Johnson. In preparation for January 6?
    Mr. Wray. Well, over the course of----
    Mr. Johnson.
    [Inaudible] preparation--did not do one in preparation for 
January 6. Correct?
    Mr. Wray. Not specifically for the January 6 certification 
itself. I think that's what you mean, yes.
    Mr. Johnson. All right. Now the FBI in 2020 December had 
received a packet of materials from the New York Police 
Department that documented the real possibility that there 
would be violence at the Capitol on January 6. And leading up 
to January 6, based on intelligence that there was a real 
potential for violence in Washington, DC, on that date, the FBI 
visited dozens of extremists already under investigation to 
discourage them from traveling to Washington, DC. Isn't that 
correct?
    Mr. Wray. I don't know about the NYPD product because 
that's not ringing a bell, as I sit here right now. But in 
terms of approaching individuals before January 6, I don't know 
whether it was dozens, but I know there were individuals that 
we had interaction with. And my understanding is that none of 
those people had indicated an intention to attack the Capitol 
certainly but did indicate an intent to travel.
    Mr. Johnson. All right. Well, let me move on. On January 5, 
the FBI field office in Norfolk, Virginia, issued a situational 
information report warning of an online post that discussed 
specific calls for violence against Congress on January 6. And 
Director Wray, it is crystal clear to me that the FBI knew or 
certainly had reason to know that there was going to be 
violence at the Capitol on January 6, and it is crystal clear 
that the FBI was more concerned about Black Lives Matter 
protesters in Washington, DC, than it was about armed conflict 
by violent and armed Proud Boys and Oath Keepers descending on 
the United States Capitol.
    It is almost like the FBI wanted to look the other way so 
that the insurrection could proceed in its effort to stop the 
certification of the Presidential election. That is what it 
appears to me and a lot of other people who are looking at this 
situation.
    Mr. Wray. Well, sir, I'm sorry if it appears that way. I 
don't agree with the characterization. But I can assure you 
that we are absolutely determined to make sure that nothing 
like what happened on January 6 ever happens again.
    As I mentioned earlier, we elevated--I elevated racially 
motivated violent extremism, specifically racially motivated 
violent extremism advocating for the superiority of the white 
race, to our highest threat priority in the summer of 2019, 
doubled the number of investigations we had into that type of 
threat and the number of arrests. But clearly, there's a lot 
more work to be done, and you can be sure the men and women of 
the FBI are absolutely determined to get it done.
    Mr. Johnson. Thank you, sir, and I yield back.
    Ms. Norton. The FBI Director has asked for a short, five-
minute recess. So I declare that the committee is in recess for 
five minutes.
    [Recess.]
    Ms. Norton. The committee will come to order.
    The gentleman from Arizona, Mr. Biggs, is recognized for 
five minutes.
    Mr. Biggs. Thank you, Madam Chair.
    We all want to know the truth about what happened on 
January 6. We are not going to get there because the Democrats 
are having another hearing today that is designed to attack 
President Trump and his supporters, appease the Democrats' most 
radical left base, and try to influence the public with more 
misdirection.
    If you want the truth, stop lying. The lies started even 
before January 6 and they have continued through today. 
Democrats and their media accomplices claim that Lafayette Park 
was cleared for President Trump to take a photo. That was a 
lie.
    Democrats and their media allies claim Postmaster General 
DeJoy was going to steal the election for President Trump. That 
was a lie.
    Regarding January 6, Democrats claimed that Republican 
Members of Congress aided rioters by providing Capitol tours in 
the days preceding January 6. That was a lie.
    Democrats claim that Officer Sicknick was bludgeoned to 
death by Trump supporters. In fact, House impeachment managers 
explicitly referred to that in their pretrial memorandum, 
quoting, ``The insurrectionists killed a Capitol police officer 
by striking him in the head with a fire extinguisher,'' closed 
quote. That, too, was a lie.
    Why is it so important for Democrats and the mainstream 
media to continue with the lie that Trump supporters committed 
violent acts--attacks, even after they have been totally 
debunked?
    Democrats and the media stuck with this lie, particularly 
with Officer Sicknick, because it was part of their narrative.
    In Judiciary Committee just last week, one of my Democratic 
colleagues asked Director Wray if January 6 was an 
insurrection. Director Wray disputed that claim, quote, ``Well, 
Congressman, I certainly understand why you would describe it 
that way. In my role as FBI director, because that is a term 
that has legal meaning, I really have to be careful about using 
words like that,'' closed quote.
    Well, a legal filing of armed insurrection allows the 
president to act with incredible power, even to the extent of 
suspending habeas corpus. But referring back to the pretrial 
memo of the House impeachment managers, the overarching 
rationale for stretching the truth was to lay the table for the 
second impeachment of President Trump.
    According to Director Wray, most of the people who came to 
Washington on January 6 were peaceful. He reiterated that 
testimony today. Quote, ``The first group, the biggest number 
of people who showed up kind of outside, maybe not on the 
Capitol grounds, were peaceful. Maybe rowdy, but peaceful 
protesters. Then there is the second group that were people who 
for whatever reason engaged in, let us say, the next level of 
criminal conduct, trespass, et cetera, and that is criminal. 
That is a violation and it needs--those laws need to be 
enforced. And then there is the third group, which is where you 
are seeing a lot of the arrests and a lot of the more 
significant charges that are coming out of our work right now, 
which are the people who brought all sorts of weapons, you 
know, Kevlar and tactical vests,'' closed quote, and as he 
testified today, that was by far the smallest group.
    If my Democratic colleagues wish to find the truth they 
must stop using inflammatory language and tell the truth about 
January 6. They continue to claim that President Trump helped 
plan the riot with no evidence to support their claim.
    They ignore that 113 people charged with crimes came under 
the Trump administration before January 20th. They also claimed 
the President Trump's speech incited the riot.
    But you can't have it both ways. President Trump's comments 
on January 6 could not have incited a riot and also plan the 
attack in advance. However, the evidence and common sense tells 
us it is neither.
    Last week, one of our Democratic colleagues compared 
January 6 to 9/11. Director Wray quickly disputed that claim, 
quote, ``First, let me just say that I don't think any attack, 
ransomware or January 6, can fairly be compared to the horror 
of 9/11 and the 3,000 or so individuals who lost their lives 
that day,'' closed quote.
    So Democrats continue to claim that a person--a protester 
brought zip ties into the Capitol to bind and attack officials. 
But the Assistant U.S. Attorney prosecuting the case filed a 
statement with the court disputing this. The prosecutor 
revealed the Ziploc tie--the zip tie lie.
    Defendants and the propagandists claim that this was an 
armed insurrection, but no guns were found, according to 
assistant director of the FBI. Another lie debunked. And the 
DOJ also revealed a Democrat trope by saying there is no direct 
evidence at this point of kill capture teams and 
assassinations.
    So as we get to this, this hearing is not in pursuit of the 
truth. It is a continuation of lies, distortions, 
prevarications, and misdirection that we have heard from my 
Democrat colleagues for many months.
    If you want to get the truth, stop lying, and Madam Chair, 
I wish to submit for the record the following news articles, 
one dated February 16, ``The False and Exaggerated Claims Still 
Being Spread about the Capitol Riot,'' one dated March 5, ``As 
the Insurrection Narrative Crumbles Democrats Cling to it More 
Desperately Than Ever,'' one dated March 14, ``The January 6th 
Insurrection That Wasn't,'' and February 22, ``FBI Seize 
Congressional Cell Phone Records Related to Capitol Attack.''
    And I yield back.
    Ms. Norton. So ordered.
    Mr. Biggs. Thank you.
    Ms. Norton. The gentleman yield back.
    The gentleman from Vermont, Mr. Welch, is recognized for 
five minutes.
    Mr. Welch. Thank you very much, Madam Chair.
    I listened to Congressman Biggs lay out a number of issues 
that are in dispute. It reminds me of a saying that Mark Twain 
presented. We all want to get the facts, but Mark Twain said, 
``Get your facts first. Then you can distort them as you 
wish.''
    I will remind my colleague, Mr. Biggs, that we made a 
request in the House and it passed for an independent 
commission that would have as its job getting the facts. That 
was thwarted in the Senate.
    So if Mr. Biggs wants to get to the bottom of that and then 
act on the facts as he wants, join us in supporting 1/6 
Commission. But I think Mark Twain has it right. Get your facts 
first and then you can distort them as you wish.
    I want to ask Director Wray a few questions.
    Director Wray, in addition to the questions about how the 
response--how to the insurrection occurred, what the 
communication was, what the steps were with information 
sharing, did the information that you had available to you 
indicate that there was a widespread dissemination of a theory 
that was advanced by certain people, including the president, 
that the election had been stolen?
    Mr. Wray. We--sorry, can you hear me?
    Mr. Welch. Yes.
    Mr. Wray. Certainly, we were aware of chatter online 
disputing the election and, in fact, I think we built into some 
of the intelligence products we circulated about domestic 
violent extremism that we put out over the course of the period 
leading up to January 6, warnings about the potential for 
violence, specifically, partisan political violence, and the 
possibility that that could be directed or targeted at law 
enforcement or government officials.
    Mr. Welch. Thank you.
    And Director Wray, in your investigation, historically as 
well as in the moment, are you aware of any large group 
gathering on the day of election certification other than on 
January 6 of 2021?
    Mr. Wray. I am sorry. I am not sure I am understanding your 
question. Other gatherings on January 6 of 2021 or prior 
certifications?
    Mr. Welch. The group that came here. I won't use the 
pejorative term mob. But they came here on January 6, which was 
the day of election certification, correct?
    Mr. Wray. Yes.
    Mr. Welch. And they were encouraged to do so by former 
President Trump, correct?
    Mr. Wray. Well, I think they were encouraged by a variety 
of things. But yes, a whole number of people were here--a very 
large number of people were here in the national Capitol region 
on January 6.
    Mr. Welch. Yes. It would be fair to say that was a 
culmination of many Americans who believed, in fact, that their 
rights and their votes had been disregarded. Was that 
consistent with the intelligence that you were--you were 
familiar with?
    Mr. Wray. Well, certainly, there were lots of people who 
believed that, who felt that way, and I am sure that some of 
those people were among the people in the crowds on January 6.
    It is a little hard for me to characterize with a broad 
brush, you know, all those people and what motivated each of 
them. But I take it----
    Mr. Welch. I am not--I am not asking you to do that. You 
know, it is--and the effort that was made by the president to 
promote this assertion that the election was stolen--many 
people believed it and it culminated with a gathering on 
January 6, and then the finalization. Was it 135 members--139 
Members of Congress voted against certifying for the person who 
had been elected the president of the United states? You are 
familiar with the fact that that vote was taken, correct?
    Mr. Wray. Yes, sir.
    Mr. Welch. All right. I am just going to go to General 
Piatt for just a minute. There are a number of things--first of 
all, thank you for your testimony and thank you for your 
service.
    But I do want to just ask about some of the things that a 
lead--that could have been done to having a lead Federal agency 
designated, having an integrated security plan, having better 
information and intelligence sharing on criminal activities, 
and a pre-Federalized plan for the National Guard.
    Would that have been helpful if each of those had been in 
place?
    [No response.]
    Mr. Welch. I think you may be mute.
    Ms. Norton. Who was that question asked to?
    Mr. Welch. General Piatt.
    Ms. Norton. Who?
    General Piatt. Congressman, this is General Piatt. I 
apologize.
    Sir, that would have been extremely helpful. That is what 
we did, sadly, after January 6 in the lead up for the security 
plan for the inauguration.
    We had a lead Federal agency. We had an integrated plan. We 
had shared understanding of indicators and warnings, 
intelligence, and one lead Federal agency.
    Mr. Welch. OK. And then also that fence that went up the 
day after January 6 that is normally in place for the 
inauguration, had that gone up on January 5 that, obviously, 
would have helped?
    General Piatt. We should have had those measures in place 
well before January 6.
    Mr. Franklin. Would the gentleman yield to a question, Mr. 
Welch?
    Ms. Norton. The gentleman's time has expired, long expired.
    We next hear from Mr.--the gentleman from Texas, Mr. Cloud, 
who is recognized for five minutes.
    Mr. Cloud. Thank you very much for being here. Thank you, 
Generals, for your service to our Nation. Thank you, Director 
Wray, for your comments earlier regarding law enforcement.
    It is important that we always remember in all of this 
that, you know, they are the ones who, at the end of the day, 
the greatest sound is Velcro coming off. They are the ones 
whose lives are in danger each and every day, and so we 
certainly appreciate and honor their service.
    Director Wray, I was noting that the absence of the Capitol 
police chief here again, as others have mentioned, allegedly 
because she is too busy to come here today. She has a 
scheduling service.
    I think it is important for us to understand really how 
this happened. Some have asked why she is not here today. I 
think it is simply because why have one hearing where we get 
things done when we can have three hearings.
    This whole issue has been politicized from the very 
beginning. We had Speaker Pelosi lying even about the cause of 
death of a Capitol officer and including that information into 
the impeachment hearings as evidence.
    We have seen how even the attending physician's office has 
been politicized as well as we had different mask rules for the 
Senate as the House.
    So, unfortunately, these positions that are supposed to be 
of service to the entire body have been highly politicized 
under the current leadership. It is important that we get back 
to actually seeking truth and serving this House and the people 
that we are elected to serve.
    Now, Director Wray, you had mentioned that this is not an 
insurrection. You wouldn't call it that. Why is that? What 
would be the definition of an insurrection?
    Mr. Wray. Sir, to be clear, all I am saying is that for us 
the use--or for me in my role to use the word insurrection 
because it has legal meanings, a very specific legal meaning, 
that is something that I would only want to be doing in 
coordination with the Justice Department and the prosecutors 
and charges brought to that effect.
    So that is really all I am saying. I am not agreeing or 
disagreeing with anybody's characterization. I am just saying 
that for my role for what I do, for me to use that word has 
different implications than it might for your colleagues or for 
others.
    Mr. Cloud. I understand. Truly, it was a heartbreaking day. 
There is no doubt about it. Heartbreaking day for Americans. 
Sad to see that happening in our Nation's Capitol.
    Republicans have been pretty unanimous in condemning it and 
calling for those prosecuted to be--or those who broke the law 
to be prosecuted.
    You mentioned domestic terrorism, that this would qualify 
as that. Would the riots that we saw across the cities for 
nights and nights and weeks and weeks, even months on end, 
qualify as domestic terrorism as well?
    Mr. Wray. We have been treating both as domestic terrorism 
and investigating both through our Joint Terrorism Task Force.
    Mr. Cloud. Have you watched--there is allegedly 14 hours of 
video. Have you seen the video of the----
    Mr. Wray. From January 6?
    Mr. Cloud. From January 6.
    Mr. Wray. I have seen lots and lots of the video. I am not 
sure that I have seen every second of video, but certainly I 
have seen a lot of video.
    Mr. Cloud. Sure. Is there a reason that can't be released 
to the public?
    Mr. Wray. Well, I think, as I mentioned in response to one 
of your colleagues' questions, we have to be very, very careful 
about ongoing not just investigations, but now a whole bunch of 
ongoing prosecution. In my experience----
    Mr. Cloud. Well, we have seen that one of the greatest 
things that has--body cam footage of police incidences being 
released and that has been a calming effect or a way to bring 
understanding throughout the communities.
    Don't you think it would be helpful if people were able to 
see for themselves what really happened and make judgments 
based on that?
    Mr. Wray. I understand the value of body-worn cameras, 
certainly, and I understand the value of being able to inform 
the public.
    But I also understand the value and the importance and the 
necessity of protecting the integrity of ongoing criminal cases 
and the rights of the accused and the very strong feelings of 
Federal judges who manage their own courtrooms and their 
proceedings.
    I learned a long time ago to be very mindful of that, and 
here we have close to 500 of those cases.
    Mr. Cloud. Five hundred--500 members--I only have 30 
seconds left--500 members have been charged. I have asked this 
question before in a previous committee hearing. Were any of 
them Members of Congress?
    Mr. Wray. In connection with January 6, I do not believe we 
have charged any Member of Congress in connection with the 
incident.
    Mr. Cloud. OK, in spite of the Speaker trying to convince 
America that was otherwise.
    I wanted to speak also just about the general corruption of 
the FBI. We have seen the FBI spied on the Trump campaign. We 
had Crossfire Hurricane, which was basically a taxpayer-funded 
Russian collusion hoax incubated at the FBI. We have seen FISA 
abuse.
    Your 215 authorization to gather business records expired 
on March 2020. I sure hope that you are not continuing that 
practice. We have seen recently the USA Today subpoenas that 
went out, and what we have seen from the public is a few slaps 
on the wrist kind of for cover. But, really, the FBI seems to 
be in need of systemic overhaul to rid out corruption.
    What are you doing to help ensure that the people in our 
United States can trust that the FBI is acting in accordance 
with the law in an unbiased manner?
    Because sometimes it would just seem--when you have a 
organization that has been that corrupt working to prosecute 
people, it seems almost like the pot calling the kettle black, 
so to speak.
    Mr. Wray. Well, Congressman----
    Mr. Cloud. What are you doing to help change the culture at 
the FBI?
    Mr. Wray. I would like to be heard on this subject, Madam 
Chair, if I would, because this is something that is extremely 
important to me.
    No. 1, where we have made failings I have implemented 
sweeping changes throughout the organization. I have installed 
an entirely new leadership team and I have implemented, in 
connection with, for example, the FISA IG report over 40 
corrective measures.
    I could go on and on. But what I would also say is that I 
disagree strongly, sir--respectfully, but strongly with your 
characterization of the FBI as corrupt.
    I will tell you as somebody who has met with law 
enforcement leaders, chiefs, sheriffs, commissioners, in all 50 
states and from well over 50 countries, I have visited all 56 
FBI field offices, most of them more than once, all 35 of our 
headquarters divisions, a whole bunch of our offices overseas. 
I have met with judges. I have met with prosecutors.
    Mr. Cloud. Director, I----
    Mr. Wray. I have met with private sector--excuse me, sir. I 
would like to be heard on this.
    Ms. Norton. The time has expired. The time has expired.
    I call----
    Mr. Cloud. I agree the boots on the ground are doing a good 
job. It is--that is not where the problem has been. Thank you.
    Ms. Norton. The time has expired.
    I call on the gentleman from California, Mr. DeSaulnier, 
who is recognized for five minutes.
    Mr. DeSaulnier. Thank you. Thank you, Madam Chair.
    I want to thank the witnesses for your public service and 
your dedication to learning and correcting some of the mistakes 
that were made.
    Director Wray, I want to speak specifically, and 
Congressman Welch did this a little bit, Congressman Biggs and 
maybe others, about the activity on social media and what you 
have learned from that, what you might do differently and what 
you have done differently.
    I know on January 5th, walking up on the Capitol without 
having this kind of information about what was happening on 
Parler and others that I was very concerned just seeing the 
people who were up there, and I am not a professional law 
enforcement official like yourself.
    So on Parler there was discussion about how to get weapons 
into D.C. There were maps of the tunnels of the Capitol 
complex. Clearly, they were being very direct.
    On TheDonald.win, there was detailed plans not just to 
travel to D.C. but where to stay, discussions on guns, 
semiautomatic weapons, ties to use against members and others, 
I assume.
    So in previous testimony, Director Wray, you have said that 
it is hard to distinguish between aspirational versus being 
intentional, but recognizing this is difficult territory and 
how unusual this was the former president, in my view, clearly 
encouraging, directing, and inciting this group of people how 
they get information.
    But just the sheer volume, wouldn't the risk assessment had 
gotten to a point that you personally would have taken more 
action, in hindsight?
    Mr. Wray. Certainly, Congressman, with the benefit of 
hindsight, we believe strongly that what happened on January 6 
was unacceptable and we are determined to figure out how we can 
do even better, do things differently, do better at collecting, 
analyzing, and disseminating intelligence.
    You mentioned social media. You are absolutely right that 
social media is one of the biggest challenges we face in law 
enforcement. The volume of it--you know, I sometimes say that 
terrorism today moves at the speed of social media, and you are 
talking about lots of chatter.
    There is all kinds of just unspeakably horrific rhetoric 
out there across the spectrum, and trying to figure out which 
individuals are just using hateful horrible language with no 
intent to act versus which ones actually have an intention to 
commit violence, especially in a country where we have the 
First Amendment and there are all kinds of policies that the 
Justice Department has had in place for years and years and 
years that govern our safe space or our ability to operate in 
social media is a real challenge.
    Among the things that we have taken away from this 
experience are a few. One, as you heard me say in response to 
an earlier question, we need to develop better human sources, 
right, because if we can get better human sources, then we can 
better separate the wheat from the chaff in social media.
    Two, we need better data analytics. The volume--as you 
said, the volume of this stuff is just massive, and the ability 
to have the right tools to get through it and sift through it 
in a way that is, again, separating the wheat from the chaff is 
key.
    And then the third point that I would make is we are 
rapidly having to contend with the issue of encryption. So what 
I mean by that is, yes, there might be chatter on social media.
    But then what we have found, and this was true in relation 
to January 6 in spades but it was also true over the summer in 
some of the violence that occurred there, individuals will 
switch over to encrypted platforms for the really significant, 
really revealing communications.
    And so we have got to figure out a way to get into those 
communications or we are going to be constantly playing catch 
up in our effort to separate, as I said, the wheat from the 
chaff in social media.
    So this is one of the biggest challenges when I talk with 
my counterparts in law enforcement across the country and, to 
some extent, even just around the world, we are all struggling 
with this issue right now and it is continuing to become a 
bigger and bigger problem for us.
    Mr. DeSaulnier. I want to give you an opportunity to 
respond to the previous member. But in the context of we are 
getting more and more information about the Department of 
Justice and specifically the FBI that doesn't speak well to the 
integrity, frequently, and the independence of the FBI, so you 
were responding, I think, appropriately, given your dedication 
and the people you manage and have worked with.
    So this is a real problem as well. How do we keep the 
Department of Justice independent, filled with integrity, and 
the FBI, given the pressures that we have seen by the previous 
administration?
    Mr. Wray. Sir, every day I am struck by just incredible 
acts of courage and professionalism and integrity by our 
people, and I think that is what I see as well across the 
country.
    That is probably why, over the last two years, each year 
the number of people all across the country applying to be 
special agents of the FBI has tripled, tripled what it was the 
first year or two when I started in this job, and it is about 
the highest it has been in about a decade.
    And this at a time when law enforcement across the country 
is having a real challenge recruiting, and I think that speaks 
volumes about what Americans and every district represented by 
this committee think of the FBI.
    Chairwoman Maloney. [Presiding.] That is a wonderful news, 
very positive news. The gentleman's time has expired.
    The gentleman from Florida, Mr. Franklin, is recognized.
    Mr. Franklin. Thank you, Madam Chair, and thank you to our 
witnesses too for what I am--what has definitely been a long 
and tedious afternoon for you. We appreciate your patience.
    My first question is for Director Wray, and for the sake of 
consistency I have asked this question of our witnesses in the 
other hearings from the Department of Justice, the DOD, and the 
Metropolitan Police.
    Director Wray, what security agency would you say has the 
primary responsibility for security of the--physical security 
of the Capitol?
    Mr. Wray. My understanding is that is the U.S. Capitol 
Police.
    Mr. Franklin. OK. Well, that has been the consistent 
answer, and has come up multiple times here this afternoon, we 
are now on to several hearings regarding this issue and we have 
yet to have anyone from the Capitol Police. That is--it seems 
to me that it is a waste of time until we can get those folks 
here in the room.
    General Piatt, you had mentioned in your testimony, I 
think, we had 350 Guard troops that started the morning here--
or that showed up for duty initially in the morning doing 
traffic and crowd control. Is that correct?
    General Piatt. That was the total. They had less than that 
for two shifts so that was the total for two shifts. But they 
were out on traffic control points unarmed and on crowd control 
locations throughout the district.
    Mr. Franklin. OK, traffic and crowd control. How many were 
ultimately activated by the end of the day?
    General Piatt. By the end--when the day started, about 350 
cars had been--were activated. By the end of the day that 
number increased probably to 600 to 700. I would have to get 
the right number for you, sir.
    Mr. Franklin. OK. And then that--the balance of those 
troops that showed up later in the day, what were they doing at 
the beginning of the day?
    General Piatt. They were most likely in their civilian 
location. We have got the full mobilization order at 3:04 by 
the Acting Secretary of Defense, and then we were able to 
mobilize and recall people so they came in from either their 
civilian workplace or wherever they were, and that is very, 
very fast, given the circumstances.
    Mr. Franklin. And what time, again, was that that they 
would have been activated, say, from their civilian jobs and 
told to head--and I assume they were told to head straight to 
the armory to pick up their gear?
    General Piatt. Congressman, yes. 3:04 is when the Acting 
Secretary of Defense gave the full mobilization order for the 
D.C. National Guard.
    Mr. Franklin. OK, and so from the traffic control and crowd 
control mission early in the day, not only did the mission 
change, the command structure, the tactics, the rules of 
engagement, and there was a complete change in mission set from 
what they thought they might have been getting earlier in the 
day to what ultimately happened, correct?
    General Piatt. Correct, Congressman. They were working for 
the Metropolitan Police Department and now they were going to 
move to a Federal police department of the Capitol Police, 
which they had to be re-sworn in, but they had to be 
reequipped, reconfigured for this new mission for civil unrest.
    Mr. Franklin. Now, I know there have been some talk that 
you might have commented about the optics of how it looked 
having Guard troops there at the Capitol. You weren't sure you 
said that, but in the heat of discussing contingencies that 
might have been said.
    But I think I have also heard you say, too, that you 
discussed the difference in the mission and, really, what our 
Guard troops are trained to do versus the special type of 
training required to conduct that mission in the Capitol. Could 
you expand on that a little bit for us?
    General Piatt. Yes, Congressman. I don't recall saying the 
word that day because the optics were, clearly, a mob storming 
the Capitol. That was not an important consideration at that 
time.
    What was important was getting the Capitol secure and to 
rapidly clear the Capitol when you had criminals with perhaps 
lethal intent is what we were--what we were tracking. You had 
innocent civilians mixed.
    That is a pretty high-level task for very well-trained law 
enforcement to do. To take soldiers who were out on traffic 
control points who are postured to do that, to put them into 
that situation, they simply--we just weren't positioned to do 
that.
    Mr. Franklin. Very good. You know, I would just like to 
make it clear that I think that the Guard did a remarkable job 
in responding in the timeframe, especially given the 
circumstances.
    You know, it is interesting. You know, we have 45 members 
of this committee and this has been a noticed hearing for a 
week and it still took us a half hour to get the hearing 
started.
    So I think in light of everything happening that day, it 
was pretty remarkable and I just want to say and my hat is off 
to all the folks who did make that response.
    Personally, I feel it was a failure in Capitol leadership--
Capitol Police leadership. But, unfortunately, we have yet to 
have any of them here before us to testify even though there 
has been ample opportunity, and I hope we get that eventually.
    But thank you all for your time this afternoon. I yield 
back.
    Ms. Wasserman Schultz. [Presiding.] The gentleman yields 
back.
    I recognize myself for five minutes.
    President Trump began laying the groundwork to delegitimize 
the results of the 2020 election well before it even took 
place. President Trump even insisted over and over that the 
2020 election was going to be fraudulent unless he won. He even 
said it before the election ever occurred.
    After he lost the election, he continued to use the 
platform of the presidency to lie to his supporters about the 
election.
    Director Wray, I want to ask you, are you aware of any 
widespread evidence of voter fraud in the 2020 Presidential 
election and has any new information emerged to support that 
claim in recent months?
    Mr. Wray. Congresswoman, as former Attorney General Barr 
and former Acting Attorney General Rosen have both said and I 
think I have said publicly, we just--we approached it with an 
open mind, but we just did not find evidence of fraud 
sufficient that could possibly have changed the outcome of the 
election.
    Ms. Wasserman Schultz. Thank you. So, therefore, do you 
have any reason to believe that President Joe Biden is not the 
duly elected president?
    Mr. Wray. I do not.
    Ms. Wasserman Schultz. On December--thank you. On December 
19, Trump tweeted, and I quote, ``Statistically impossible to 
have lost the 2020 election. Big protests in D.C. on January 6. 
Be there. Will be wild.''
    Director Wray, is it fair to say that former President 
Trump was successful in getting his supporters to show up to 
the Save America Rally on January 6?
    Mr. Wray. Well, I am not sure I could really, you know, 
weigh in on what caused people to show up to what rally.
    Ms. Wasserman Schultz. Well, it was a pretty motivated 
group of people and they were storming the Capitol with big 
Trump banners and Trump paraphernalia and Trump clothing.
    And so I don't know how you could not acknowledge that it 
is fair to say that he was successful in getting his 
supporters. But I will just--I will just answer that question 
that it was pretty clear.
    Do you agree, Director Wray, that Donald Trump continued to 
repeat false claims and conspiracy theories to the crowd during 
his speech on January 6?
    Mr. Wray. Congresswoman, as I--as I think I have said in 
response to some of the earlier questions, I really don't 
think, as FBI director, I should be commenting on or weighing 
in on other people's speech and rhetoric. And so with respect, 
there is really nothing for me to add on that.
    Ms. Wasserman Schultz. OK. So I can understand that.
    Mr. Wray. I understand the question.
    Ms. Wasserman Schultz. I will just point out that he told 
his supporters that the 2020 election was, quote, ``So corrupt 
that in the history of this country we have never seen anything 
like it.''
    At the end of his speech, he said, quote, ``If you don't 
fight like hell, you are not going to have a country anymore,'' 
and then his supporters marched to the Capitol, forced their 
way inside, violently attacked the police, and put the lives of 
the vice president, Members of Congress, and our staffs in 
grave danger, all in an attempt to, in the president's own 
words, stop the steal.
    The FBI defines domestic terrorism as, quote, ``violent 
criminal acts committed by individuals and/or groups to further 
ideological goals stemming from domestic influences.
    Director Wray, I would like you to help me break this down. 
Yes or no, did the attack on the U.S. Capitol include violent 
and criminal acts that resulted in the temporary disruption of 
the counting of electoral votes?
    Mr. Wray. Yes.
    Ms. Wasserman Schultz. Yes or no, would President Trump's 
months-long effort to spread lies and false claims about a free 
and fair election qualify as domestic influence that led to 
these criminal acts?
    Mr. Wray. Well, again, without weighing in on particular 
people's rhetoric, I would say that we consider the attack on 
the Capitol on January 6 to be a form of domestic terrorism 
that meets the definition that you just read or articulated.
    Ms. Wasserman Schultz. OK. And so if you connect the dots 
between the language that President Trump repeatedly used 
before and after the election to the insurrection and attack on 
the Capitol, which you just acknowledged was--does meet the 
definition of domestic terrorism, then, therefore, President 
Trump's incitement logically led to the insurrection and attack 
on the Capitol.
    Do you believe the words and actions of the president of 
the United States then caused in any way, shape, or form the 
events of January 6 or was a contributing factor in any way?
    Mr. Wray. I really can't weigh in on all the different 
contributing factors. No. 1, I would say--no, I----
    Ms. Wasserman Schultz. No. No. I am not asking you--no, no, 
forgive me. Reclaiming my time. I am not asking you to weigh in 
on all the contributing factors.
    I just am asking you if the words and actions of the 
president of the United States from before the election all the 
way leading up to the attack on the Capitol caused in any way, 
shape, or form the events or had an impact on the events of 
January 6?
    Mr. Wray. Well, Congressman, let me--let me try to answer 
your question this way, which is I think there were a variety 
of influences that caused different people on January 6 to act, 
and my understanding is that some of the individuals charged 
that we have brought cases against for their attack on January 
6 have cited that as one of their influences.
    Ms. Wasserman Schultz. OK. That is helpful.
    Mr. Wray. So according to those people that is my 
understanding.
    Ms. Wasserman Schultz. That is helpful, and I understand 
that you would rather be careful with your words. But we have 
to confront the truth.
    Former President Trump cultivated a homegrown terror 
movement. It was his self-serving lies and conspiracy theories 
that were the catalyst for a violent insurrection that left 140 
police officers injured and five people dead.
    Let us not shirk from the responsibility to hold Donald 
Trump--not that you are, Director Wray--but here we are not 
going to shirk from the responsibility to hold Donald Trump and 
all of the leaders who incited the insurrection accountable and 
push extremism back to the fringes.
    OK. I--my time is expired, and now I would like to 
recognize--the gentlewoman from Missouri, Ms. Bush, is 
recognized for five minutes.
    Ms. Bush. Thank you. I thank you for convening this 
important hearing.
    Director Wray, I want to pick up where we left off last 
week when you testified before the House Judiciary Committee, 
the FBI's treatment and surveillance of Black protesters and 
its failure to respond to a white supremacist insurrection.
    So let us start on June 1st, 2020. Protesters were marching 
for justice and George--for George Floyd and Breanna Taylor 
outside of the White House in Lafayette Square, that early that 
evening law enforcement stormed the--stormed the square, firing 
rubber bullets, tear gas, and other chemical agents into the 
crowd.
    Director Wray, did the FBI issue a formal threat assessment 
during the summer of 2020 protests for racial justice, yes or 
no?
    Mr. Wray. You know, right now I don't remember which 
intelligence products we put out in the summer. I would say 
that those individuals who were engaged in crowd control did 
not include the FBI because that is not--that is not our 
contribution to the effort. We don't--we don't do the crowd 
control piece. That is other agencies.
    Ms. Bush. So there was no formal threat. You didn't--you 
can't say that about January 6 either? You are saying that that 
is not the FBI?
    Mr. Wray. No. No. There is two different parts of your 
question. One was the formal threat assessment issue and the 
other was your description of tear gas and that kind of thing. 
And what I was saying on the second part, namely, tear gas and 
engagement with protestors in that regard, that is not the 
FBI's role in----
    Ms. Bush. Right. I am just--would you just say law 
enforcement. I don't say law enforcement. I just asked if there 
was a formal threat assessment.
    Mr. Wray. Right. And so then on the formal threat 
assessment part of your question, we did not--I know we did not 
issue what I think most people are describing as a quote/
unquote ``formal threat assessment'' related to January 6. That 
is a term that I think is normally used in connection with the 
so-called NSSE or security event.
    As far as the summer----
    Ms. Bush. Yes, the summer.
    Mr. Wray [continuing]. As far as the summer, I don't--just 
sitting here right now, since I know this is the hearing on 
January 6, I just don't remember what products or intelligence 
assessments we did or didn't do over the course of the summer.
    Ms. Bush. Thank you. So, I mean, it is clear to me that the 
FBI took considerable action against people nonviolently 
protesting police brutality, which is because police kill Black 
people, yet failed to respond to known--known white supremacist 
insurrection seeking to attack the Capitol to overturn the 
results of an election.
    A few hours after law enforcement cleared protestors out of 
Lafayette Square, a Cessna jet took off from an airport in 
Manassas, Virginia, and flew a seven-mile circle around D.C.
    Director Wray, there have been reports that this plane was 
operated by the FBI and was used to surveille protesters. Is 
that accurate?
    Mr. Wray. Congresswoman, I can't say sitting here right now 
exactly what any specific FBI aviation asset could have been 
used for.
    I will tell you we have very specific policies that govern 
all that from the Justice Department and I have no reason to 
believe those policies weren't complied with.
    Ms. Bush. As the director, that is not something that you 
would know?
    Mr. Wray. Well, we have--you may--as you may know, 
Congresswoman, every FBI field office has aviation assets and 
they are used all the time.
    So I can't, sitting here right now, tell you what a 
particular Cessna may or may not have been used, even if it was 
ours, which I don't actually know to be the case.
    Ms. Bush. So let us talk about what was difficult to assess 
for your agency and what was treated as unverified 
intelligence.
    An online post that included maps of Capitol tunnels said, 
``Congress needs to hear glass breaking, doors being kicked in, 
and blood from their Black Lives Matter and Antifa slave 
soldiers being spilled. Get violent. Stop calling this a march 
or a protest. Go there ready for war. We will get our president 
or we die. Nothing else will achieve this goal.''
    How did the First Amendment prevent you from monitoring 
threats of violence from white supremacist groups ahead of 
January 6 but not prevent you from surveillance of people 
protesting in defense of Black lives during the summer of 2020, 
those protests?
    Mr. Wray. Well, Congresswoman, first, the Norfolk Report, 
which is the one that you are referring to in your quote, is 
something that we took seriously and shared immediately with 
the Capitol Police and our other partners.
    Second, when it comes to white supremacist violence, which 
we describe as racially motivated violent extremism, is 
something that I think we have taken seriously, which is why I 
said in my opening and reminded the committee that back in July 
2019, I, we, elevated that threat to our highest threat 
priority, and that is why I, we, have doubled--doubled the 
number of investigations into this kind of activity that you 
are describing----
    Ms. Bush. Right, but this is something that----
    Mr. Wray [continuing]. And in fact, tripled the number of 
arrests, tripled the number of arrests in----
    Ms. Bush. Reclaiming my time. Reclaiming my time. 
Reclaiming my time. This is something that just happened that 
was not addressed.
    Ms. Wasserman Schultz. The gentlewoman's time has expired.
    Mr. Keller, the gentleman from Pennsylvania, is recognized 
for five minutes.
    Mr. Keller. First, I would like to thank our military, our 
Capitol Police, and law enforcement for the outstanding job 
they did on January 6 and the outstanding job they do every 
day.
    Thank you to the witnesses for being here today. However, 
it is troubling that the Capitol Police are not present at this 
hearing.
    Without their input, we cannot comprehensively improve 
security measures, increase transparency in communications, and 
ensure the events of January 6 never happen again.
    So, General Piatt, does the National Guard have authority 
to assist the Capitol Police on its own accord?
    General Piatt. It does not, Congressman. It requires the 
Secretary of Defense to approve support to Federal law 
enforcement.
    Mr. Keller. But if the Secretary of Defense says go down to 
the Capitol, can they do it without being asked?
    General Piatt. We need to have a request first from those 
entities, and those requests were asked for if there was needed 
support in the days leading up to January 6, and we were told 
they will not need any support.
    Mr. Keller. So you can't just show up at the Capitol and 
say, I want to provide help. You have to be asked by the 
Capitol Police?
    General Piatt. Yes, Congressman.
    Mr. Keller. So you have to be requested.
    And as you mentioned, the Pentagon had asked the Capitol 
Police if they needed help leading up--needed help from the 
National Guard leading up to January 6. It is my understanding 
they were asked on December 31, 2020, if they needed any 
assistance.
    General Piatt. We got the request from the mayor. Mayor 
Bowser was drafted on 31st of December. The request from DOD to 
the Capitol Police if they needed any assistance came on the 3d 
and then on the 4th the Secretary of the Army asked the Capitol 
Police if they needed assistance and they replied they did not.
    Mr. Keller. On each occasion?
    General Piatt. On each occasion, sir.
    Mr. Keller. OK. And the intelligence bulletin that Dr. 
Foxx, our colleague from North Carolina, asked about that was 
shared with the Capitol Police on January 5th?
    General Piatt. Congressman, we do not collect--the Army 
does not collect intelligence on----
    Mr. Keller. Oh, excuse me. That is actually--yes, excuse 
me. That is Secretary Wray. You had the--from the field office 
in Norfolk that was shared with the Capitol Police on January 
5th?
    Mr. Wray. Yes, sir, in three different ways.
    Mr. Keller. Thank you. And, General Piatt, you were not 
asked for assistance on January 5th?
    General Piatt. We were not asked for assistance on January 
5th, Congressman.
    Mr. Keller. Thank you. So I presume if you are--if you are 
not going to circumvent the chain of command, can you please 
walk us through the timing of the troop mobilization from the 
moment the Army received the official request for assistance 
from the Capitol Police Board?
    General Piatt. That assistance request--that request came 
on the 2:30 phone call and immediately Secretary McCarthy knew 
that it was urgent and it was required, and he ran down the 
hall to get that approval. We had approval by 3 o'clock and we 
had mobilization approval by 3:04.
    What we didn't have is we didn't have a plan to get them 
remissioned to get them now to be able to respond to what the 
Capitol Police needed. There was never a doubt they needed it.
    Once that report came in, we could see that the perimeter 
had collapsed and the Capitol was breached. They needed it. We 
needed to get soldiers now reequipped and reconfigured for this 
new mission.
    Mr. Keller. And had the Capitol Police asked for help on 
any of the occasions prior to that you would have been able to 
have people on the ground at the Capitol on January 6 before 
anything happened?
    General Piatt. That is our recommendation. We should have 
had this plan before January 6. That way we would have had a 
lead Federal agency and an integrated security plan.
    Mr. Keller. Thank you, General Piatt and Director Wray. I 
thank you both for your service on January 6 as well as the 
duration of your time.
    I just--I just want to say that if the Democrats are 
serious as they say they are in investigating the events of 
January 6, then they will join committee Republicans in calling 
the Capitol Police to testify.
    We need to make sure we know what happened, and it really 
baffles me and I think it baffles much of America why the 
people that were in charge of protecting the Capitol have not 
been at either of the hearings we have had so far.
    The Chief Officer Pittman was in charge of intelligence and 
protective services on January 6 and before. Now Officer 
Pittman is in charge of the Capitol Police.
    I think if anybody wants to find the truth, you should be 
calling that witness so that we can ask the questions on what 
they did, what she did with the information she received on 
January 5th and why she didn't request help from her superiors, 
go to the Capitol Board.
    What does the Capitol Police do when they get an assessment 
and that really needs to be investigated also, and we shouldn't 
be waiting until the tail end.
    The only reason they are calling the Capitol Police is 
because the Republicans insisted they do it.
    Thank you, and I yield back.
    Ms. Ocasio-Cortez. [Presiding.] Thank you so much.
    I will now recognize myself for five minutes of 
questioning. Thank you all to our witnesses for coming in and 
offering your expertise and insight and testimony today.
    And, in fact, I have been reviewing quite closely the sworn 
testimoneys from some of you and the agencies represented that 
have been previously provided to other House and Senate 
committees, and I have noticed some contradictions in FBI 
testimony as well as some of the Department of Defense records 
that I would like for us to just use this opportunity to clear 
up and I will start with Director Wray.
    Director Wray, we now know that the attacks were planned 
out in the open on popular social media platforms like Parler 
and Telegram. Among thousands of violent messages, there were 
messages saying, quote--if that they certified--quote, ``If 
they certified Biden, we will storm Capitol Hill. Executions on 
the steps.''
    Also, wide social media activity included posts discussing 
specific details ahead of the attack, ranging from maps with 
layouts of the Capitol complex and construction plans for the 
gallows.
    During the Judiciary Committee hearing, Director Wray, you 
noted that none of the more than 500 people charged so far had 
been previously under FBI investigation. Does the FBI regularly 
include social media monitoring as part of its efforts to 
combat violent extremism?
    Mr. Wray. Thanks. Two things. I appreciate the question. So 
first, it is not none. It is almost none, which is important.
    Ms. Ocasio-Cortez. Got it.
    Mr. Wray. And, of course, our investigation is very much 
ongoing and the facts are changing probably even as we speak 
here.
    But second, as to social media, I think there is--it is 
understandable that there is a lot of confusion on this 
subject. We do not--we have very specific policies that have 
been at the department for a long time that govern our ability 
to use social media, and when we have an authorized purpose and 
proper predication, there is a lot of things we can do on 
social media and we do do and we aggressively do.
    But what we can't do--what we can't do on social media is 
without proper predication and an authorized purpose just 
monitor just in case on social media.
    Now, if the policies should be changed to reflect that, 
that might be one of the important lessons learned coming out 
of this whole experience. But that's not something that 
currently the FBI has the--either the authority or, certainly, 
the resources----
    Ms. Ocasio-Cortez. I see.
    Mr. Wray [continuing]. Frankly, to do, which gets back to 
the point that I was making in response to one of your 
colleagues earlier about the importance of developing----
    Ms. Ocasio-Cortez. Thank you. Sorry, I apologize for 
interrupting. We just have limited time.
    At that same hearing, you also later stated that, 
certainly, and you had stated during this hearing that you all 
were aware of online chatter about the potential for violence 
but, quote, ``I am not aware that we had any intelligence 
indicating that hundreds of individuals were going to storm the 
Capitol.''
    Now, prior to January 6 we saw and--rather, we saw that the 
FBI officials previously testified to the Senate Homeland 
Security Committee that there was no such intelligence, despite 
the fact that the FBI may have been aware of those posts. Would 
you be able to clarify that for us?
    Mr. Wray. Unfortunately, Congresswoman, I am not sure I 
know exactly what somebody said in earlier testimony. So I am 
reluctant to try to elucidate somebody else's testimony, 
unfortunately, since I don't have the benefit of seeing it.
    Ms. Ocasio-Cortez. So was this--and I apologize--I 
apologize if I am, you know, boiling this down too much. But it 
seems as though there may have been either a failure to collect 
intelligence on this insurrection prior to it happening or 
failure to act on intelligence that we may have had.
    Is it--given the answer that you just gave, was this due, 
you know, perhaps policies that you had, you know, that you 
just pointed to? Was this a failure to collect intelligence 
prior to the event or was it a failure to act on intelligence 
that we may have had?
    Mr. Wray. I don't know that I would--I am not sure I could 
put it in either of those buckets. I think what this shows is 
the challenge of getting sufficient information about what is 
out there on social media to be able to have the ability to 
distinguish between what we are calling sort of aspirational 
versus the intentional. It is sort of the wheat from the chaff 
answer that I gave earlier.
    Ms. Ocasio-Cortez. Understood. Sorry, and one last 
question. One last question. I apologize.
    Mr. Wray. Yes.
    Ms. Ocasio-Cortez. Director Wray, do you have any reason 
whatsoever to believe that President Trump or anyone in the 
administration did not want to deploy the National Guard on 
January 6?
    Mr. Wray. That is not really a subject I have anything to 
add on, I am afraid.
    Ms. Ocasio-Cortez. Are there any records of conversations 
between the FBI and the Trump administration that would 
potentially reveal knowledge of a potential--of the potential 
of the attack prior to January 6?
    Mr. Wray. I am not aware of any records of sort you are 
describing. Most of the interaction between, certainly, the 
White House would have been with the White House and the 
Justice Department, not the FBI.
    Ms. Ocasio-Cortez. Understood. Thank you very much.
    The gentlewoman from New Mexico, Ms. Herrell, is now 
recognized for five minutes.
    Ms. Herrell. Thank you, Madam Chair.
    Madam Chair, I ask unanimous consent that Senator Ron 
Johnson's June 7, 2021, letter to the Department of Justice be 
entered into the record.
    Ms. Ocasio-Cortez. Without objection, so ordered.
    Ms. Herrell. I ask that the FBI respond to these questions 
in writing to our committee as soon as possible.
    And I want to get right on this because I know we are under 
a timeframe. Director Wray, how much money and manpower is the 
FBI using to investigate the January 6 riot compared to the 
months-long riots across the U.S. at Federal buildings and at 
the White House?
    Mr. Wray. I am not sure I can give you exact figures on 
dollars and headcount. But what I can tell you is that in both 
instances we have been conducting hundreds of investigations, 
conducting hundreds of arrests, and involved, I think, almost 
every FBI field office involved.
    Ms. Herrell. OK. And it has been reported that facial 
recognition is being used to track down Capitol Hill rioters. 
Is the same technology--is the same technology being used 
against those that rioted and damaged Federal property near the 
White House or in Portland?
    Mr. Wray. I know that we have used facial recognition in 
the same way they have been--we have been using in relation to 
January 6 in connection with some of the violence and criminal 
activity that we saw over the summer.
    Sitting here right now, I can't tell you specifically 
whether it would have been Portland or other cities or all of 
the above.
    Ms. Herrell. OK. Madam Chair, I would like to ask for those 
answers to be brought back[ET4] to the committee's attention 
and they can be put in writing.
    Ms. Ocasio-Cortez. Without objection.
    Ms. Herrell. Thank you.
    And then on--Director Wray, the scale of violence and 
damage to Federal property during the 2020 summer was 
unparalleled compared to other recent incidents of unrest in 
the U.S. Would you call the summer riots of last year a threat 
to our democracy?
    Mr. Wray. Well, certainly, the violence over the summer was 
a threat to communities all across the country and to 
businesses and to law enforcement.
    Whether I would call it a threat to our democracy, that I 
would have to think about it a little bit more. But I am not 
sure I can take it that far, sitting here right now.
    Ms. Herrell. OK.
    And General Piatt, I wanted to ask you if there were any 
questions or accusations from my colleagues that you would like 
to respond to that you felt like you might not have been able 
to so far.
    General Piatt. Thank you, Congresswoman. Well, what we 
wanted to make clear is that we should have been prepared. We 
should have had an integrated security plan. We should have had 
a lead Federal agency.
    Those requests did not come in in time to respond to a 
crisis. Sadly, when it was occurring, we just couldn't get 
there in time. We just were not in position.
    But we learned from that, and as we prepared for the 
inauguration that is, indeed, what we did. We had that lead 
Federal agency. We had an integrated security plan and we had 
shared indicators and warnings of intelligence, and the 
security plan worked.
    That is the role of the Department of Defense. People think 
we may have delayed a response. We had to form a new response 
and we had to do it while the crisis was ongoing and your lives 
and many lives were at danger.
    Ms. Herrell. Great, and thank you. And I want to thank all 
of you for your time today and, obviously, for your service to 
our country.
    And I hope for the sake of this committee and for the 
American people that we represent that we can get through this 
and then really start addressing the issues that are more 
adequately important to districts such as mine on the border, 
like my colleague, Jim Jordan, mentioned earlier today.
    I know our constituents are concerned about the inflation, 
the spending. They are worried about domestic terrorism. They 
are worried about our global standing. They are worried about a 
lot of things.
    So I hope for the sake of everything good we can get 
through these committee hearings and get back on track and do 
the work of the American people.
    And I yield back, Chair. Thank you.
    Ms. Ocasio-Cortez. Thank you so much.
    The gentlewoman from Michigan, Ms. Tlaib, is recognized for 
five minutes.
    Ms. Tlaib. Thank you, Madam Chair.
    I truly appreciate this hearing. I think it is incredibly 
important. I think before we begin, just to be clear, the 
people that we are talking about that attacked the Capitol live 
with our borders. Some of them are coming from our 
neighborhoods and our communities across the country and that 
is why this hearing is so incredibly important.
    I also want to repeat, as I continue to repeat, over and 
over again, that immediately after the aftermath of this 
attack, you know, I hear people talking about, you know, new 
surveillance powers, talking about the possibility of 
increasing national security powers and those kinds of things. 
It is incredibly important that no matter the intention, 
history shows us that every time we give our Government new 
powers in this area, they are inevitably used to target people 
that look like me, oppressed people of color, and minority 
groups across our country, not those that attacked our Capitol.
    Director Wray, in your testimony before the Senate 
Judiciary Committee you stated, and I quote, the attack, the 
siege was criminal behavior, plain and simple, and it is 
behavior that we, the FBI, view as domestic terrorism.
    Is that correct?
    Mr. Wray. It sounds like a correct quote of what I said in 
front of the Senate Judiciary.
    Ms. Tlaib. Sure. So, some of my colleagues, Director, are 
calling the January 6, you know, some of them just look away 
and are calling them, normal tourist visits or activities to 
the Capitol.
    Did you hear that false description before?
    Mr. Wray. I have been asked about that and I wouldn't 
describe it that way.
    Ms. Tlaib. OK. Well, unfortunately, that is how, you know, 
again the January 6 attacks have been described in the past and 
it is really to downplay, excuse and, otherwise, defend this, 
really, violent attempt to overthrow our democracy and the 
Constitution, itself. By doing that, I very much believe 
colleagues are endorsing those actions.
    Ms. Tlaib. Director Wray, what would happen if you do not 
hold those that were responsible for January 6 accountable, 
what do you think would happen?
    Mr. Wray. Well, Congresswoman, you know, I think one of the 
things that defines our country is a respect for the rule of 
law. And there is a right way and a wrong way to express your 
unhappiness, your anger, your disagreement under the First 
Amendment and that does not include violence against law 
enforcement, destruction of Federal property, and the kind of 
behavior that we saw in this Capitol on January 6.
    And so, to me, the rule of law is at stake and that is what 
we are trying to make sure that we enforce. The ends do not 
justify the means no matter how much people----
    Ms. Tlaib. Do you think--oh, I am sorry to interrupt--do 
you think, Director Wray that it would enable people to 
continue those efforts, that it would enable what we would, 
some would refer to white supremacist groups, domestic 
terrorist groups here, do you think it would enable them to 
continue to attack our Capitol and our democracy if we did not 
hold them accountable?
    Mr. Wray. I think if the criminal laws are not fairly and 
aggressively enforced and if domestic terrorism is not fairly 
and aggressively pursued, then I think it will not only 
continue, but grow.
    Ms. Tlaib. In March of this year, I don't know if folks on 
the panel know, but the Director of National Intelligence 
released an unclassified report titled, quote, Domestic Violent 
Extremism Poses Heightened Threat in 2021. The report 
identified the, quote, Emboldening impact, a violent breach of 
the U.S. Capitol as a development that would, quote, almost 
certainly spur domestic violent extremists to try to engage in 
violence this year.
    Director, yes or no, do you agree with DNI's assessment?
    Mr. Wray. Yes, we contributed to that assessment and 
shared.
    Ms. Tlaib. Do you believe, Director, that continued 
attempts to discredit the November election, such as the absurd 
Arizona recount, and recent reports that the former President 
believes that he will be reinstated. He still says this could 
potentially have similar effects.
    Mr. Wray. Well, certainly, I think there is a whole range 
of things out there that are contributing, you know, as I 
said----
    Ms. Tlaib. Well, do you think it enables that narrative 
that pit folks had a right to come here and a right to come 
here and attack our Capitol and our democracy?
    Mr. Wray. You know, I have tried to steer clear of weighing 
in on----
    Ms. Tlaib. Sure.
    Mr. Wray [continuing]. Different people's speech, just 
because of my role. I certainly----
    Ms. Tlaib. I understand. Director Wray----
    Mr. Wray [continuing]. Understand why you are asking that.
    Ms. Tlaib [continuing]. It is really scary to believe, 
because I truly believe this. Do you think if the people in 
that crowd looked brown or black, majority, do you think that 
we would be here in this hearing right now?
    Mr. Wray. You know, that is hard for me to say. I can tell 
you, we, FBI----
    Ms. Tlaib. Do you think the riot gear would have showed up?
    Mr. Wray [continuing]. Have one standard.
    Ms. Tlaib. Do you think the National Guard would have been 
called?
    Because I----
    Mr. Wray. I really can't----
    Ms. Tlaib. Because what I saw when Black Lives Matter 
protesters were here and those defending their right to choose, 
it seemed like all of a sudden, all of y'all had resources. 
Y'all had a plan then.
    Why is it when white supremacist terrorists show up here to 
want to lynch the vice president, to attack the speaker, to 
attack our democracy, threatening the lives of Members of 
Congress, really, the lives of just the whole livelihood of our 
whole country, that no one seemed to want to show up?
    Mr. Wray. Well, Congresswoman, I can only really speak to 
the FBI's role and my view is we have one standard and we have 
tried to apply it consistently in both situations.
    Ms. Tlaib. Thank you. I yield.
    Chairwoman Maloney. [Presiding.] The gentlelady's time has 
expired.
    The gentleman from Louisiana, Mr. Higgins, is recognized.
    Mr. Higgins. Thank you, Madam Chair.
    My, my, my, bless you sir--my, my, my. My colleagues across 
the aisle are going to find themselves in a bind this year, 
because we are going to investigate. We are going to 
investigate what exactly did happen leading up to January 6. 
You would to have to have been living under a rock in America 
to not know that there was potential for violence, riot, and 
mob behavior on January 6. Anybody with an ounce of common 
sense and any kind of connection to the street knew that that 
was a potential.
    The United States Capitol Police received intelligence from 
numerous law enforcement and intelligence services, which 
clearly indicated a likelihood of violence on January 6 and 
they failed to adequately prepare. Let's look at why.
    Mayor Bowser. My goodness. December 31, she had one tone 
when she requested the cooperation of the DC National Guard. 
And let me clarify, the commanding general of the DC National 
Guard is subordinate solely to the President. The authority to 
activate the DC National Guard has been delegated by the 
President to the Secretary of Defense and further delegated to 
the Secretary of the Army. There is a chain of command.
    It begins with a request from the mayor. The mayor made 
that request on December 31. The President authorized it on 
January 3, but on January 5, Mayor Bowser of DC, who is deeply 
connected with my Democratic colleagues here in this body, she 
had a change of heart. She sent out a letter and said, we don't 
want any National Guardsmen here. I got National Guardsmen just 
for traffic control wearing safety vests, unarmed, working 
traffic control and crowd control, here and there in the city; 
certainly not pre-deployed to react and respond quickly to the 
kind of thing that everybody knew was a potential to happen on 
January 6.
    So what happened? Were there communications between my 
colleagues and the Democratic party and their friend, the mayor 
of DC, to have that change of heart, the day before January 6?
    We are going to find out. I promise you.
    Director Wray, will you explain to my colleagues in law 
enforcement, what a show of force deterrence is, how meaningful 
it is, and how effective it is as we deal with potential for 
violence, mob behavior, rioting, violent protests, when things 
can get out of hand, and we know it, because of our intel, we 
have a show of force. Would you explain that in generality, 
sir. I realize you cannot discuss the case. Share with America, 
briefly, how effective the show of force is.
    Mr. Wray. Well, Congressman, with the caveat up front that 
the FBI, of course, doesn't do crowd control----
    Mr. Higgins. Right. But you are my thin, blue-line brother 
on this panel, because the chief couldn't come. For some 
reason, the chief we invited is not here, so you are the man on 
the panel with law enforcement experience.
    Just share with my colleagues and America just how 
effective a show of force is as a deterrent if you are facing 
potential violence, do you agree with that assessment or not, 
good sir?
    Mr. Wray. My understanding is that a visible show of 
strength and security is a very, very significant factor.
    Mr. Higgins. A very significant factor. I concur.
    Why do you think, America, why do you think that show of 
force was canceled the day before January 6?
    I promise you we are going to find out. We will know 
exactly what happened and some in this body are not going like 
it because there was plenty of intel out there across the 
country, many, many field agents had turned in reports at the 
Federal level, local law enforcement, the boots on the ground 
knew that there was potential for violence and a mob going to 
protest and a nation had to be locked out of its Capitol for a 
year. There was potential. It needed to be controlled.
    Show of force is a peaceful deterrent. Who could possibly 
benefit? Let the world ask that question: Who could possibly 
benefit from the removal of a show of force deterrence on the 
eve of January 6?
    I will leave America with that cliffhanger.
    Madam Chair, I yield.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Illinois, Mr. Davis, is now recognized.
    [Pause.]
    Chairwoman Maloney. You have to unmute, Mr. Davis. We can't 
hear you.
    Mr. Davis. What about now?
    Chairwoman Maloney. Yes. Now we can hear you.
    Mr. Davis. All right. Thank you very much.
    I want to thank all of the witnesses who have been with us 
all afternoon.
    In the joint bipartisan report released by the Senate last 
week, the committee found that, and I quote, according to DOD, 
the Department of Justice was designated as the lead Federal 
agency in charge of security preparations and response on 
January 6; however, when he testified before our committee, 
former acting attorney general Jeffrey Rosen seemed to dispute 
that the Justice Department has been tapped as the lead Federal 
agency.
    Lieutenant General Piatt, was it your understanding, prior 
to January 6, that the Department of Justice had been 
designated as the lead Federal agency?
    General Piatt. Congressman, it is. We had asked for a lead 
Federal agency. I am not sure exactly when it was designated, 
but we did not have an integrated security plan.
    Mr. Davis. Thank you.
    General Flynn, same question for you.
    General Flynn. Congressman, my understanding is exactly as 
General Piatt outlined.
    Mr. Davis. Thank you.
    According to documents obtained by our committee, the Army 
initially recommended against supporting Mayor Bowser's request 
on National Guard support prior to January 6, in part, because 
the lead Federal agency had not been designated at the time.
    That recommendation changed once DOJ was designated as the 
lead agency.
    Lieutenant General Piatt, could you briefly explain the 
importance of designating a lead Federal agency to large-scale 
events like January 6.
    General Piatt. Yes, Congressman.
    That was a recommendation made to the Acting Secretary of 
Defense by Secretary McCarthy, that we have a lead Federal 
agency, that Federal agencies exhaust all their assets before 
we support with military support.
    We supported that recommendation and that was the way he 
was able to approve Mayor Bowser's request for National Guard 
forces.
    Mr. Davis. Why did DOD then resist granting Mayor Bowser's 
request until a lead agency had been identified?
    General Piatt. We recommended that for a better security 
plan to have a lead Federal agency and an integrated security 
plan. So, we would have unity of command and unity of effort so 
that if anything went un-according to plan, and events normally 
do, that lead Federal agency would have the authorities 
required for requesting additional support.
    Mr. Davis. Thank you.
    Unfortunately, as indicated by Mr. Rosen's testimony before 
our committee last month, DOJ was either unaware of or resisted 
its lead agency role. According to the Joint Senate Report, 
Army Chief of Staff, General McConville noted, and I am 
quoting, DOJ did not conduct any interagency rehearsals or have 
an integrated security plan, as DOJ did during the summer of 
2020 protests, when it had not been designated as the lead 
Federal agency.
    According to Senate report, General McConville, and I 
quote, stretched the importance of integrated security plans, 
and acknowledged that had there been one on January 6, DOD's 
response time would have been quicker.
    General Flynn, had DOJ played a more proactive role in 
coordinating the Federal security preparations, prior to 
January 6, do you think the Federal response would have been 
quicker?
    General Flynn. Congressman, I can't answer for the 
Department of Justice; however, what I would say is that that 
integrated security plan, pre-Federalized soldiers, and airmen. 
A rehearsal and an integrated security plan would have assisted 
us when the crisis rapidly escalated and the violence went in a 
direction that was unforecasted.
    Mr. Davis. Thank you very much.
    Well, the documents released by the committee are, for one 
reason, senior leadership at the Department of Justice was 
distracted in the days leading up to January 6. They seemed to 
be in full-blown crisis mode, trying to warn up off a desperate 
President from pressuring them to take action to stop the vote.
    And while they may have succeeded at doing so at DOJ, the 
results that followed on January 6 were deadly.
    And Madam Chairwoman, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    Mr. Clyde from Georgia is now recognized. Thank you.
    Mr. Clyde. Thank you, Madam Chairwoman.
    Director Wray, we know that through various reporting, 
including the June 8th Senate report, the FBI's Norfolk field 
office disseminated a January 5 report that was disseminated to 
the Capitol Police or the Joint Terrorism Task Force.
    We also know that the Capitol Police analysts who obtained 
a copy of the Norfolk report forwarded it to their supervisor, 
but it went no further.
    So, would you agree that the Capitol Police should be here 
answering questions about why they seemed to have not taken 
this report seriously and prepared accordingly, yes or no?
    Mr. Wray. I really can't speak for the committee's 
decisions about who it calls as witnesses.
    Certainly, I agree with your description of what we did in 
terms of providing the report to the Capitol Police.
    Mr. Clyde. OK. Are you aware that Acting Chief Pittman 
served as the assistant chief of the Capitol Police's 
Intelligence Division at the time of the riots?
    Mr. Wray. I have heard that in connection with this 
hearing, just over the course of the afternoon, here today.
    Mr. Clyde. OK. So, as a leader of an intel agency, does it 
give you pause that Pittman, the very person responsible for 
coordinating and approving the Capitol Police's own 
intelligence assets, assets that led to poor decisionmaking, 
failed to ensure that all rank-and-file officers had been 
properly briefed, regularly updated, and prepared to manage the 
events of the 6.
    As the law enforcement officer here, does that give you 
pause? Does that concern you, sir?
    Mr. Wray. Well, Congressman, I certainly understand why you 
are asking the question, but I really don't feel comfortable 
armchair quarterbacking another law enforcement head.
    Mr. Clyde. OK. Well, it certainly gives me pause, 
especially when, as was previously mentioned, she drew a 92 
percent no-confidence vote in February from the Department's 
union.
    This next question is for all the witnesses, please. So 
Director Wray, you first, then Lieutenant General Piatt, and 
General Flynn.
    Didn't we have the ability to prevent a Capitol breach on 
the 6th; in other words, would better preparation have 
prevented the breach that did occur?
    Mr. Wray. I'm sorry, Congressman. There was little bit of 
cross-chatter there. Would you mind repeating your question.
    Mr. Clyde. OK. All right. I will repeat that question.
    Did we have the ability to prevent a Capitol breach on the 
6th; in other words, would better preparation have prevented 
the breach that did occur?
    Mr. Wray. Certainly, I think it is within the United 
States' power with all the agencies working together and with 
proper warning, to have prevented January 6. And I know from 
the FBI's end, we are determined to do our part to make sure 
that it never happens again.
    Mr. Clyde. OK. For each of the generals, Lieutenant General 
and General Flynn, do you agree with that?
    General Piatt. Congressman, I think how we secured the 
inauguration that, yes, absolutely, if we had had an integrated 
security plan, lead Federal agency, shared warnings and 
indicators, and intelligence, the power of the police force 
within the District, and the support from the National Guard, 
absolutely.
    Mr. Clyde. OK. Thank you.
    General Flynn. Congressman, I echo what General Piatt 
mentioned there, upon reflection of what happened on January 6.
    Mr. Clyde. OK. So, with better preparation, we certainly 
would not have had this issue.
    So, would you consider the events that led up to the breach 
of the Capitol, a failure of law enforcement leadership? The 
question, and that is for----
    Mr. Wray. I will go first. I will go first.
    Again, the same answer as I gave before; I am just not 
really comfortable weighing in on other people's leadership, in 
charge of their own agencies.
    Mr. Clyde. OK. I mean, it is got to be a failure of 
somebody's leadership here.
    All right. Then, last, actually, Director Wray, on another 
topic, we have seen in media reports where thousands of 
citizens' personal tax information has recently by leaked from 
the IRS.
    Is that a felony?
    Mr. Wray. Financial taxpayer information is a felony, the 
last time I checked.
    Mr. Clyde. OK. Would you commit to the American people that 
the FBI will fully investigate this leak until the source of 
the leak is found?
    Mr. Wray. I will commit that I understand we have recently 
received a referral from the IRS and I will commit that we will 
look at it carefully and take appropriate steps, as 
appropriately predicated and authorized.
    Mr. Clyde. All right. To restore confidence to the American 
people that the IRS can be secure with their personal 
information?
    Mr. Wray. Certainly. We all want the IRS to be secure in 
their information.
    Mr. Clyde. Absolutely.
    OK. We know that at 3:04 p.m., that Chris Miller provided 
verbal approval for full activation of the D.C. National Guard, 
1100, total. We also know, according to the Senate report that 
the Capitol Police, of its 1840 officers employed on the 6th, 
had 1214 sworn officers onsite at 2 p.m., had 1457 officers 
onsite across the entire 24-hour period.
    Of the 1214 officers, the Capitol Police is on record 
noting that it was only able to account for the location of 417 
officers on the 6th and it could not account for the remaining 
797.
    If the Capitol Police had close to its 1800 officers on 
duty that day, 600 more than were in the complex at 2 p.m., and 
a little over half of what the National Guard deployed, would 
that have helped prevent a breach of the Capitol?
    Director Wray, that is for you.
    Mr. Wray. Really addressed that question. It may be better 
directed to other agencies.
    Mr. Clyde. OK.
    Chairwoman Maloney. The time of the gentleman has expired.
    Mr. Clyde. All right. Thank you.
    I yield back.
    Chairwoman Maloney. The gentleman from California, Vice 
Chair Gomez is recognized.
    Mr. Gomez. Thank you, Madam Chair.
    So, January 6 is something that I think none of us will 
ever forget, especially if we were in the Capitol that day, 
which I was, or especially my colleagues or myself, who were 
stuck in the gallery. Not only because we were stuck while 
everybody else was evacuated, we also had to crawl on the 
ground so that, you know, we wouldn't get shot or something 
would happen.
    That is something that I will never forget, and I am still 
extremely angry about that day. And I know we are talking about 
intelligence failures and there has been a lot, but I had 
constituents who came up to me and asked me, hey, are you 
concerned that they are going to try to, Trump supporters and 
QAnon followers are going to try to stop the certification of 
the Electoral College, and I was like, no, no, no.
    We have Capitol Police. We have FBI. If we hear something 
or if they heard something, we would get notice. I am not 
concerned about that.
    But these white nationalists literally planned this 
insurrection in plain sight. My own constituents were following 
it along and warning me. My Chief of Staff tried to warn me 
even a few days earlier, but I thought FBI, right; they're 
going to know.
    But there wasn't a threat assessment, no intelligence 
bulletin. And how can you prepare if there wasn't something of 
that sort?
    Yes, I heard the testimony from the director that he gave, 
there was raw data that was given to the Capitol Police, but I 
still, Director Wray, the FBI claims it didn't produce a 
bulletin over First Amendment concerns.
    Do you consider threats against elected officials and an 
assault on the Capitol to be free speech?
    Mr. Wray. What I would say is we produced a dozen-plus 
intelligence products on domestic violence extremism, 
specifically geared toward the elections and protests related 
to the elections over the course of 2020, right on up to, and 
leading to, and including the month right before January 6, in 
addition to the raw intelligence or the raw information that we 
just described.
    So, we were producing a fair amount of information, warning 
about the potential for violence, about the potential of 
violence among protests, among the potential for violence in 
the partisan political rallies----
    Mr. Gomez. Let me----
    Mr. Wray [continuing]. Related to the election, and right 
on up to----
    Mr. Gomez. I want to----
    Mr. Wray [continuing]. Past the Election Day----
    Mr. Gomez. Let me reclaim my time.
    The Senate report from the Homeland Security and Rules 
Committee said, neither the Department of Homeland Security, 
nor the FBI issued a threat assessment or joint intelligence 
bulletin to the January 6 joint session of Congress to count 
the Electoral College votes.
    A bulletin, specific to that day, which my own constituents 
were mentioning. They don't work for the FBI, you know, some of 
them are just school teachers, but they knew it.
    Why didn't you issue a threat assessment or a bulletin 
specifically regarding June 6?
    Mr. Wray. Normally, when we issue a formal threat 
assessment, which is something we don't do all the time, but it 
is something that is tied to an event where there is a whole 
process, where something is designated a national special 
event, an NSSE, kind of like the Inauguration is, and it is 
planned months in advance by the Department of Homeland 
Security, designates the event, and then we are asked to 
provide a formal threat assessment in relation to that event.
    For the rest of the year, 365 days a year, we are producing 
intelligence products all the time, and we did here, as well. 
Both, the finished intelligence products about domestic violent 
extremism and about the potential for violence related to the 
election, including past the Election Day itself, all the way 
up through the Inauguration----
    Mr. Gomez. But you didn't----
    Mr. Wray [continuing]. And in addition to that, the raw 
information that we have already discussed in this hearing.
    Mr. Gomez. But you did not issue an intelligence bulletin, 
a threat assessment for January 6. People were gathering with 
gallows, gallows--right, and you didn't issue a threat 
assessment.
    Let me ask you this, if you had to do it over again, would 
you have issued a threat assessment or an intelligence bulletin 
for January 6, yes or no?
    Mr. Wray. Well, certainly. If we knew all the information 
we have developed in our investigations before January 6, we 
would have built an intelligence product based on that and 
provided it to all sorts of people.
    Mr. Gomez. Well, let me just point out that an intelligence 
bulletin was just issued regarding QAnon followers being upset 
that their prophesies are not going to be coming to fruition.
    So, when it comes to the real threat that occurred leading 
up to January 6, I think it was a failure of taking that 
seriously, to acting, and would put not only members' lives in 
danger, especially the ones that don't have security, but also 
our democracy in danger.
    With that, I yield back.
    Chairwoman Maloney. The gentleman's time is expired.
    The gentleman from Kansas, Mr. LaTurner, is recognized.
    Mr. LaTurner?
    Mr. LaTurner. Thank you, Madam Chairwoman.
    Once again, this Committee had a real opportunity to hold a 
bipartisan oversight hearing to get to the bottom of the events 
of January 6. We should have had witnesses such as the former 
Capitol Police chief, the former house sergeant at arms, that 
could speak specifically to the breakdowns in the leadership 
and communication on that day, but sadly, that has not 
happened.
    Our job should be to hold the leadership accountable, who 
failed. Hold the people that committed these crimes 
accountable. Make sure that this never happens again. And, 
finally, focus on bringing this country back together, to work 
on their behalf in the halls of Congress. That is what they 
expect, and partisan hearings like this further to hurt our 
ability to do that.
    First and foremost, I want to ask Director Wray, what have 
you learned over the last five months that will ensure that 
something like this never happens again?
    Mr. Wray. A number of things, but I will just list off a 
few that are top of mind for me these days. You know, one is 
that we need to develop better human sources, as to be able to 
better anticipate violent extremism. Second, we need to improve 
our data analytics, because as I said in response to one of the 
earlier questions, the volume, just the terabytes and terabytes 
of information that are descending upon investigators, 
including at the FBI, is like nothing that we have ever 
experienced before. So, the need to get through it fast and 
separate, as I said before, the wheat from the chaff, is at a 
premium. And then third, we are going to have to deal with the 
encryption issue, because what we have seen time and, again, we 
saw it in relation to the January 6 attack, but we also saw it 
over the summer with the violence that occurred there, the bad 
guys are communicating in ways that are right around the edges 
of the First Amendment on social media, but then they switch 
over to encrypted devices and encrypted messaging platforms to 
communicate the stuff that is most revealing and is most likely 
to allow us to better spot the difference between the 
intentional from the aspirational. So, those are three things 
that I think are particularly important, but there are going to 
be a whole host of lessons that we learn out of this and we are 
actively engaged in this process.
    Mr. LaTurner. Thank you, Director.
    While I have you, I also want to talk about a going concern 
for the people I represent back in Kansas, as well as Americans 
across this country, and I know it is a concern for you. You 
recently compared the ongoing ransomware threat to global 
terrorism and even 9/11.
    Can you talk to me a little bit about the interaction that 
the FBI has with CISA and how we can improve the communication 
that these Federal agencies have with each other to better 
serve the private sector that is getting hammered with 
ransomware attacks.
    Mr. Wray. So, certainly, Congressman. I appreciate the 
question.
    First, let me just be clear. When I was using the analogy 
to 9/11, I was referring to the challenge that this presents 
and what kind of response is called for, in response as opposed 
to comparing the ransomware threat to the attack, itself, on 
the Twin Towers.
    Mr. LaTurner. I knew what you meant, Director, and I 
apologize for not being more clear. The challenge is just as 
great, though, I agree.
    Go ahead.
    Mr. Wray. Yes, and what is called for is something very 
similar to what this country did when it pulled together after 
9/11, which is a whole-of-government, in my ways, whole-of-
society response involving all the agencies, involving the 
private sector, involving average Americans, even, with our 
foreign partners to disrupt, in a coordinated way, the attack.
    And so, we are working much more closely. You mentioned 
CISA. I think over the last few years, the partnership between 
the FBI and CISA has kind of grown by leaps and bounds. We each 
have a role to play. We each complement each other. We try to 
communicate to the victim companies that if you reach out to 
one of us, you are reaching out to both of us, and we will get 
the other involved if you don't need to call both right away 
simultaneously.
    They are focused on protecting the asset. We are focused on 
chasing after the threat. So, in terms of the FBI, we are after 
the ``who did it'' piece.
    Mr. LaTurner. My concern, before I run out of time, 
Director, and I would like you to respond, is that we have CISA 
and we have the FBI, obviously, the Department of Defense, we 
have people involved on the offensive and defensive side of 
this and my concern is, is that we don't have one central force 
directing and coordinating all of these Federal assets to make 
sure that this runs more smoothly.
    Do you have a comment on that?
    Mr. Wray. Well, I think as is true in terrorism, there is 
not one agency that coordinates all terrorism efforts, but what 
is clearly called for is coordination and joint-sequenced 
operations.
    We, for example, have the National Cyber Investigative 
Joint Task Force, where we have multiple agencies there working 
with us. So, there are vehicles like that to ensure proper 
coordination, and with that, I think you and I are very much on 
the same page.
    Mr. LaTurner. Thank you Madam Chairwoman.
    Chairwoman Maloney. Your time is expired.
    The gentleman from Illinois, Mr. Quigley, is now 
recognized.
    Mr. Quigley. Thank you, Madam Chairwoman.
    Madam Chairwoman, we just heard from one of our friends 
from across the aisle, that we aren't acting in a bipartisan 
manner to make sure that that doesn't happen again, prevent it 
in the future, and hold those accountable.
    You know, I am not exactly sure how you do all of those 
things, it is tough, but I know how you don't do it. You don't 
begin by denying that it happened, as many have on their side 
of the aisle; you actually support a defense supplemental, a 
security supplemental, and you support a commission. That is at 
least a good start.
    But General Piatt, let me ask, and the quotes can be wrong, 
but the quote I heard was that you said a military presence 
could make the situation worse and that the optics were bad.
    So, this is an opportunity for you to clear the air. What 
exactly did you say about your concern of how a military 
presence at the Capitol would look and what was your thinking 
at the time?
    General Piatt. Congressman, thank you.
    At the time, I don't recall using that word on 6 January, 
because at the time, the Capitol was clearly breached and 
overrun. It was an ugly sight to look at.
    What we were doing was discussing a range of options, what 
could be used for the National Guard, and I was recommending 
that we would not use them as a clearing force, because that is 
a mission for a highly trained police force.
    Mr. Quigley. At what point did you say that, do you recall?
    General Piatt. It was on the 2:30 phone call. We were 
exploring a range of options. And then afterwards, we went----
    Mr. Quigley. But you--I'm sorry. Again, you saw what was 
happening at the Capitol, but you still didn't want to use the 
National Guard as a clearing force; is that correct?
    General Piatt. We wanted to use the National Guard. I 
didn't think they were the best available force for what would 
be a very complex clearance mission that would require a highly 
trained police force. I recommended law enforcement would be 
the best force for that mission.
    But I also recommended that the National Guard, that we 
would continue to buildup their numbers, it would be good to 
set an outer corridor along the perimeter around the Capitol, 
and that is the mission we ended up doing.
    Mr. Quigley. But the mission you wanted to do was to have a 
security force around the Capitol while the battle is taking 
place in the Capitol?
    General Piatt. We thought that--well, things were going 
very fast, Congressman. What we were seeing unfolding was that 
there would be a breach clearing force inside the Capitol out. 
Police would be able to do more targeted arrests on the outside 
and we would be able to regain the perimeter security of the 
Capitol.
    We recommended that that would be a good mission for the 
D.C. National Guard with their riot gear.
    Mr. Quigley. But, in effect, that would make them 
spectators to the battle, for the most part, would it not?
    General Piatt. It would control the ability of the other 
forces to do their mission. It is a typical security mission, 
to secure the perimeter, to allow and facilitate the clearing, 
that way no other full-formed forces or assailants or criminals 
would be able to break out of the Capitol and flee; they would 
be contained, and that would allow them to clear and control 
the objective and clear the Capitol.
    Mr. Quigley. So, it was just to act as a perimeter force. 
And, again, I am far from a military expert, but, again, it 
sounds like they better going to view the main battle from the 
inside, and a battle, by that time, which you have to 
acknowledge, was lost.
    This was a battle and for the first time since 1814, we had 
lost, and with respect, what you seem to be suggesting is that 
the force with the most strength would act as perimeter 
spectators and make sure the people who did all the damage 
didn't get away.
    Is that a fair way to characterize what you were proposing 
at that point?
    General Piatt. Congressman, the Guardsmen that we had 
available at that time were unarmed. They were on a traffic-
control, crowd-control mission. That was our concern. We had to 
get them re-missioned, reequipped, reconfigured and that is why 
we were making these recommendations to the Secretary of the 
Army for how best to utilize a force and we were trying to 
buildup that force as fast as we possibly could.
    Mr. Quigley. I think what you said before was that this 
wasn't a delay; it was a new plan on the fly, correct?
    General Piatt. Yes, Congressman.
    Mr. Quigley. Is that another way of saying, again, I was in 
a room where it happened, so I think I can say this. Isn't that 
another way of saying that you weren't prepared in the first 
place?
    General Piatt. We were not positioned to respond to this 
crisis, because the only force we had committed in the District 
were unarmed soldiers on traffic control points and crowd 
control.
    We had to recall the D.C. National Guard. We had to 
reposition those forces, reconfigure, and reequip----
    Mr. Quigley. OK. We are worried about optics. This was the 
first battle on our Nation's Capitol since 1814. We lost it. 
You wanted to be spectators, and you wanted to direct traffic 
while hundreds of people were injured and five people died.
    I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Texas, Mr. Fallon, you are now 
recognized.
    Mr. Fallon. Thank you, Madam Chair.
    Director Wray, what law enforcement agency has primary 
authority and responsibility for the safety and security of the 
Capitol Building and Capitol Complex.
    Mr. Wray. Congressman, my understanding is that that is the 
U.S. Capitol Police.
    Mr. Fallon. U.S. Capitol Police.
    So, it stands to reason that the singular most important 
person to have here today to attend this hearing would be the 
chief of the United States Capitol Police. And this begs the 
question: Where is the acting police chief? Where is Police 
Chief Pittman?
    The reason, or better stated, the excuse that we were given 
is that acting Police Chief Pittman is busy watching someone 
else's testimony at someone else's committee hearing. The dirty 
little secret is she should be here and she could be here; in 
fact, we could have compelled her to be here, via subpoena 
power, but inexplicably, our Democratic chairwoman refused to 
exercise her legal and entirely, and in this case, entirely 
proper subpoena power. Now, I guess we will see her on the 21st 
of July, but she should be here today, as well.
    Director Wray, to date, of the 500 or so odd people, 500-
plus people arrested for their actions on January 6, has anyone 
been charged with inciting an insurrection?
    Mr. Wray. I responded to an earlier question, I don't 
believe that that has been one of the charges used so far, but, 
again, with that many cases, I want to give them a little room 
for the fact that I may not know all of the cases.
    Mr. Fallon. OK. So, as of right now, the answer would be 
no; fair so say?
    Mr. Wray. That is my understanding.
    Mr. Fallon. OK. Has anybody within charged with sedition to 
your knowledge?
    Mr. Wray. Same answer.
    Mr. Fallon. OK. No, again.
    Has anybody been charged with treason?
    Mr. Wray. I don't believe so.
    Mr. Fallon. Has anyone been charged with illegal possession 
of a firearm inside the Capitol on that day?
    Mr. Wray. I believe there has been at least one instance of 
someone arrested with a firearm in the Capitol and there have 
been a number of arrests of individuals either, en route to the 
Capitol or near the Capitol for the siege, but----
    Mr. Fallon. Director----
    Mr. Wray [continuing]. But I don't have the exact number.
    Mr. Fallon. Director, inside the Capitol--so, there has 
been--your testimony is there is one person that has been 
arrested for possession, illegal possession of a firearm inside 
the Capitol Building that day; is that correct?
    Mr. Wray. I don't know exactly what is in his complaint or 
indictment, but I know there has been at least one person, or I 
have been told there has been at least one person arrested with 
a firearm in the Capitol on January 6.
    Mr. Fallon. So, you don't know, Director, if they have been 
charged with that crime; is that correct?
    Mr. Wray. With that many cases, I just can't be sure 
about----
    Mr. Fallon. OK. So, you aren't sure, OK.
    Just to reclaim my time, the video that was shown at the 
beginning of this hearing was visceral, it was unsightly, and 
it does--it's emotional and it is outrageous what happened. The 
images and the actions that we saw in that video were 
disgusting and they were very disturbing.
    So, we are supposed to believe here that the best way to 
describe the events of January 6 should be calling it an 
insurrection, at least our friends across the aisle say that. 
So, we are to believe the strongest republic in history and the 
world's oldest functioning democracy was actually threatened to 
be overthrown by a mob, not armed with any artillery or 
firearms or bayonets, but rather, flagpoles, stolen podiums, 
and mace.
    So, how can we--what is the best and most honest and 
accurate way to describe the events of January 6?
    It is a mob that rioted. So, we should be calling it the 
January 6 Capitol riot. Republicans have always condemned all 
political violence, so let's compare the BLM Antifa riots of 
2020 with what happened on the January 6 Capitol riot.
    In the summer of 2020, there were riots that swept across 
140 cities. On January 6, it was in one building.
    And mid-summer 2020, those riots cost $2 billion, with a B, 
in damages. On January 6, a million and a half dollars.
    Months went by with these riots, and the riot on January 6 
was about four hours.
    So, there was more loss of life, more damage, and it lasted 
much longer and threatened scores of cities. We have had no 
hearings on the Antifa or BLM riots, but we have had now, two 
hearings on the January 6 riot, and apparently, we are going to 
have a third one in January.
    Director, one last question: Is it true that the FBI has 
not classified the Atlanta spa shootings as a hate crime?
    Mr. Wray. I don't believe we have classified the Atlanta 
shootings as anything. I think that is being prosecuted by 
local officials.
    Mr. Fallon. OK. And Madam Chair, thank you.
    Director Wray, I am asking you for the record, a question 
for the record, and I am requesting that you provide the 
following information to me, and this committee, and its 
members. Please provide us with all police records filed and 
arrests made for hate crimes committed against[ET5] Asian 
Americans and Pacific Islanders in the years 2019 and 2020 and, 
second, all hate crimes in general, and that would include 
police reports filed alleging hate crimes, arrests made, and 
people charged with hate crimes, and last, hate crime 
convictions.
    Thank you very much Madam Chair.
    I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Kentucky, Mr. Comer, is now recognized.
    Mr. Comer. Thank you, Madam Chair.
    And I am going to ask all my questions to General Piatt, 
and I am going to try to get a lot of questions in, in five 
minutes, so if you could work with me, and we are going to 
rattle through these, General, sir.
    Isn't it true that the D.C. National Guard is under the 
command of the President of the United States?
    General Piatt. Yes, Congressman.
    Mr. Comer. And that authority has been delegated by the 
President down to the Secretary of Defense, correct?
    General Piatt. Yes, Congressman.
    Mr. Comer. And the Secretary of Defense has further 
delegated that authority to the Secretary of Army, correct?
    General Piatt. Correctly, Congressman.
    Mr. Comer. On December 31, Mayor Bowser requested D.C. 
National Guard assistance with the planned protests for January 
5 and 6, correct?
    General Piatt. Correct, sir.
    Mr. Comer. And was that request for assistance ultimately 
approved by the Secretary of Army?
    General Piatt. It was, and then approved by the Acting 
Secretary of Defense, as well.
    Mr. Comer. Were restrictions placed on that authority, upon 
the request of Mayor Bowser, and if so, what were those 
restrictions?
    General Piatt. She had requested that they be unarmed and 
that they not take place in any law enforcement activities.
    Mr. Comer. That is a good point that I don't think has been 
reported in the press.
    The National Guard troops on that mission were equipped 
with visibility vests and lighted wands, correct? Not armed. 
They were not armed; is that correct? That is what you said, 
right?
    General Piatt. They were not armed, Congressman.
    Mr. Comer. Because that is what the mayor of Washington 
requested; is that right?
    General Piatt. Yes, sir.
    Mr. Comer. So, is it accurate to say that the expected role 
of the D.C. National Guard, prior to the events of January 6 
actually unfolding was simply to assist D.C. law enforcement 
with traffic control and crowd management while being unarmed?
    General Piatt. That was their mission, Congressman.
    Mr. Comer. Well, I will just go back a couple of questions. 
Now, Mr. Quigley, in his last seconds of time, took a shot at 
you for being on traffic patrol, but what we have just learned 
today is that that was at the direction of the mayor of D.C.
    She asked you to do traffic control, essentially, and be 
unarmed at that, correct?
    General Piatt. Right, Congressman.
    Mr. Comer. So, what you were actually deployed in doing on 
January 6 when the calls came in, requesting they be redeployed 
to the Capitol, that was a whole change in plans and that 
wasn't what the mayor of Washington, DC. had asked of the 
National Guard.
    So, when you got the call to be redeployed, I would imagine 
that there were a lot of things that had to take place. I would 
imagine that the National Guard troops would have to leave 
their positions, which I would assume were scattered all over 
Washington, DC, and go back to a central place to get armed and 
come up with a plan.
    Would that be correct?
    General Piatt. Yes, Congressman.
    And they were also called in from their civilian 
workplaces, as well.
    Mr. Comer. So, there were civilian workers that weren't 
even--they were at work, like what the National Guard does; 
they work private jobs.
    So, the Democrats on this committee, many of whom who have 
criticized you for not being there on time, when, actually, you 
were doing what you were asked to do by the mayor of 
Washington, DC.; is that correct?
    General Piatt. Correct, Congressman.
    Mr. Comer. Wow. So, on January 3d and 4th, the U.S. Capitol 
Police confirmed with the Pentagon that there was no 
requirement for Department of Defense support; is that true?
    General Piatt. Yes, it is, Congressman.
    Mr. Comer. Whoo, this has been a productive hearing.
    Man, I think that, Madam Chair, if we have a part three, we 
need to have the mayor back, as well as the Capitol Police 
chief who didn't have time to come and attend our hearing today 
because she had something else more important to do. Wow.
    One last question for Director Wray. Sir, the minority on 
this committee, we have being requesting hearings to discuss 
the origination of COVID-19, and I know the President has 
instructed the intelligence community to reopen an 
investigation into the origination of COVID, and, specifically, 
with the Wuhan lab.
    Can you tell us anything about how that investigation is 
going and do you think you will be able to report back to the 
President within that 90-day time period that he requested, 
that the Intelligence Committee would be able to report back?
    Mr. Wray. Congressman, I would say that--sorry, I would say 
that the intelligence community is working very hard across 
multiple agencies on the subject, but it is probably too early 
for me to give much of a prognosis on it. We are making a lot 
of progress and that is all that I can say at this time.
    Mr. Comer. Well, that is of the utmost importance. I think 
an overwhelming majority of Americans are hoping that we can 
get to the bottom of this, and we will be in communication with 
you on that ongoing investigation.
    Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back, but before 
we close, I would like to offer the ranking member an 
opportunity to make closing remarks, if he would so choose.
    Ranking Member Comer, you are now recognized.
    Mr. Comer. Well, thank you, Madam Chair.
    I want to thank the witnesses who are here today.
    Director Wray, I am surprised that you did not get one 
single question from the Democrats about Russia and I am 
surprised because I've sat on this committee during the entire 
Trump administration and the Democrats, prior to Biden being 
sworn into office, were obsessed with Russia, and I am just 
shocked that you weren't asked any of those questions.
    So, maybe next time when they invite you back to the 
committee, they'll have some questions about their conspiracy 
theories with respect to Donald Trump and Russian collusion.
    General Flynn, thank you for your service. I really don't 
understand why you were asked to be a witness at this hearing. 
I know you just got stationed to a new post in Hawaii and it is 
probably a big inconvenience to have to come back and testify 
before this committee. I don't think you got very many 
questions from the Democrats, but at any rate, I appreciate 
your service.
    And I must say to General Piatt, I appreciate your 
testimony here today. I think you answered a lot of questions 
that many of my friends on the other side of the aisle hadn't 
really understood yet about the role that the National Guard 
played in--on January 6 and what your primary focus and what 
your primary orders were, and from whom. So, I appreciate your 
testimony.
    I will just say that, I hope, Madam Chair, we can focus, 
moving forward on the crisis at the border, the origination of 
COVID-19, and holding whomever that possibly was, accountable. 
And I hope that we can look at big tech and some other areas 
where we have a lot of questions.
    So, I appreciate the hearing and I yield back.
    Chairwoman Maloney. The gentleman yields back. Thank you.
    And I now recognize myself. I appreciate very much, 
Director Wray, and General Flynn, and Lieutenant General Piatt, 
taking the time to appear before the committee on this 
important topic. I appreciate your service and your testimony 
today.
    The insurrection on January 6 was not a random event. It 
was President Trump's last-ditch effort to overturn the 2020 
election and remain in power. President Trump picked the date 
weeks in advance. He riled up the rioters on the mall that 
morning and he pointed them toward the Capitol Building and he 
said, fight like hell, and, quote, stop the steal, end quote.
    Today, the committee released documents showing that even 
as he was setting in motion the violent events of January 6, 
Donald Trump was putting direct pressure on the Department of 
Justice to overturn the election. His pressure was as 
relentless as it was disturbing.
    He asked the attorney general of the United States to throw 
out millions of votes based on ludicrous conspiracy theories, 
but only in the states he lost; unfortunately, my colleagues on 
the other side of the aisle were silent today about these 
revelations, except it's just that DOJ wasn't sufficiently 
loyal to President Trump during his pressure campaign.
    When Donald Trump failed to corrupt our Nation's law 
enforcement, he resorted to organizing mob violence at the 
Capitol. This attack was planned in public, but today's hearing 
made clear that our Nation's law enforcement, the military, and 
intelligence agencies failed to do their jobs to protect our 
Nation's Capital.
    FBI Director Wray admitted today that he was unaware of the 
more than 50 tips from social media site Parler, prior to the 
January 6 warning of violence, including one user's posting 
that stated, quote, ``don't be surprised if we take Capitol 
Building,'' end quote.
    This was a massive intelligence failure by the FBI, plain 
and simple.
    The committee will continue to investigate this failure and 
we expect Director Wray to honor the commitment he made today 
to expedite his agency's response to our requests, providing 
all the documents, and his commitment to conduct his own 
assessment of the FBI's failure and how we would prevent this 
from happening in the future.
    We also learned today about serious failings at the 
Department of Defense. General Flynn admitted that the 
Department made crucial errors in planning for January 6, but 
we still have not learned a single official, except we haven't 
had or heard from anyone accepting responsibility for these 
catastrophic mistakes.
    Lieutenant General Piatt also confirmed that it took nearly 
three hours for the National Guard to deploy after the Capitol 
Police, quote, frantically requested urgent and immediate 
support, end quote.
    In response, Lieutenant General Piatt admitted today that 
he recommended that Federal troops should not be used as, 
quote, a clearing force at the Capitol. So, even after the 
Capitol was breached, the Defense Department resisted sending 
help.
    Clearly, our committee has much left to investigate and 
that is exactly what we intend to do. Next month, Acting Chief 
Pittman will appear to answer tough questions about the role of 
the Capitol Police in the attack.
    In the meantime, our committee will continue to press for 
answers on the failures uncovered today and, we will bring in 
witnesses, including former White House Chief of Staff to 
answer questions about President Trump's outrageous efforts to 
overturn the results of the 2020 Presidential election.
    In closing, I want to thank our panelists for their remarks 
and I want to commend my colleagues for participating in this 
important conversation.
    With that, and without objection, all members will have 
five legislative days, within which to submit extraneous 
materials and to submit additional written questions for the 
witnesses to the chair, which will be forwarded to the 
witnesses for their response.
    I ask our witnesses to please respond as promptly as you 
are able.
    This hearing is adjourned.
    [Whereupon, at 6:57 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
